Case: 20-3541

Document: 11-2

Filed: 10/30/2020

Page: 1

No. 20-3541

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

TANELLE M. JEFFERSON,
Petitioner-Appellant,
v.

STATE OF OHIO,
Respondent-Appellee.

)
) .
)
)
)
)
)
)
)
)

Oct 30, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: LARSEN, Circuit Judge.
Tanelle M. Jefferson, a pro se Ohio prisoner, appeals from the district court’s judgment
dismissing his petition for a writ of habeas corpus filed under 28 U.S.C. § 2254. This court
construes Jefferson’s notice of appeal as an application for a certificate of appealability (“COA”).
Jefferson also moves for permission to proceed in forma pauperis (“IFP”).
In 2016, an Ohio jury convicted Jefferson of felonious assault with a firearm specification
and having weapons while under disability, and the trial court sentenced him to twelve and a half
years of imprisonment. On direct appeal, the Ohio Court of Appeals affirmed his convictions and
sentence, State v. Jefferson, No. L-16-1182, 2017 WL 3575607 (Ohio Ct. App. Aug. 18, 2017),
and the Ohio Supreme Court denied further review.
While his direct appeal was pending before the Ohio Supreme Court, Jefferson filed an
application to reopen his direct appeal with the Ohio Court of Appeals. However, that court denied
his application as untimely, and Jefferson did not appeal that decision.
Jefferson then filed a post-conviction petition in the trial court, but the court denied his
petition. Jefferson also did not appeal that decision. Instead, Jefferson proceeded to file several
additional motions and petitions in the trial court, which that court denied. Again, Jefferson filed
no appeal.

Case: 20-3541

Document: 11-2

Filed: 10/30/2020

Page: 2

No. 20-3541
-2In 2018, Jefferson filed a § 2254 petition in the district court, alleging: (1) ineffective
assistance of trial counsel; (2) insufficient evidence to support his convictions; (3) prosecutorial
misconduct; and (4) improper search and seizure. Over Jefferson’s objections, the district court
adopted the magistrate judge’s report and recommendation, Jefferson v. Ohio, No. 3:18-cv-00779,
2019 WL 9359722 (N.D. Ohio May 15, 2019), and dismissed the petition. Jefferson v. Ohio,
No. 3:18cv779, 2020 WL 1983065 (N.D. Ohio Apr. 27, 2020). Additionally, the district court
denied Jefferson a COA to appeal its decision.
Under 28 U.S.C. § 2253(c)(1)(A), this court will grant a COA for an issue raised in a § 2254
petition only if the petitioner has made a substantial showing of the denial of a federal
constitutional right. A petitioner satisfies this standard by demonstrating that reasonable jurists
“could disagree with the district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to proceed further.” Buck v.
Davis, 137 S. Ct. 759, 773 (2017) (quoting Miller-El v. Cockrell, 537 U.S. 322, 327 (2003)); see
also Slack v. McDaniel, 529 U.S. 473,484 (2000). When a claim is denied on procedural grounds,
the petitioner must show “that jurists of reason would find it debatable whether the petition states
a valid claim of the denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling.” Slack, 529 U.S. at 484.
Jefferson first raises several claims of ineffective assistance of counsel, but the district
court determined that he procedurally defaulted these claims in state court. To have presented his
claims properly to the state courts, Jefferson would have needed to provide the Ohio courts a full
opportunity to resolve his constitutional issues by invoking one complete round of the State’s
established appellate review process. See O ’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999). Since
some of Jefferson’s ineffective-assistance claims are based on the trial record, Ohio law required
that he raise these claims on direct appeal. See Hill v. Mitchell, 842 F.3d 910, 936 (6th Cir. 2016);
McGuire v. Warden, Chillicothe Corr. Inst., 738 F.3d 741, 751 (6th Cir. 2013). Jefferson did not
raise these claims on direct appeal with the Ohio Court of Appeals. Although he did raise them
when he sought additional review with the Ohio Supreme Court, “[p] roper exhaustion requires that
a petitioner present every claim in the federal petition to each level of the state courts, including

Case: 20-3541

Document: 11-2

Filed: 10/30/2020

Page: 3

No. 20-3541
-3 the highest state court to which the petitioner is entitled to appeal.” Rayner v. Mills, 685 F.3d 631,
643 (6th Cir. 2012). A habeas petitioner usually must present his claims to both the intermediate
state court of appeals and the state supreme court for the claim to be considered exhausted. Wagner
v. Smith, 581 F.3d 410, 414 (6th Cir. 2009). Jefferson’s failure to present these claims to the Ohio
Court of Appeals left them unexhausted. Further, Jefferson had no remaining state court avenues
for raising these claims because the Ohio courts would have dismissed any attempt to raise them
again as barred by the doctrine of res judicata. See Lundgren v. Mitchell, 440 F.3d 754, 765 (6th
Cir. 2006). Consequently, reasonable jurists could not disagree with the district court’s conclusion
that Jefferson did not properly exhaust and procedurally defaulted these ineffective-assistance
claims on direct appeal.
In attempting to excuse his procedural default, Jefferson argues that his appellate counsel
rendered ineffective assistance by failing to raise these claims with the Ohio Court of Appeals.
Ineffective assistance of appellate counsel can constitute cause to excuse a petitioner’s procedural
default. Bennett v. Brewer, 940 F.3d 279,286 (6th Cir. 2019), cert, denied, 140 S. Ct. 2534 (2020).
But the substantive ineffective-assistance-of-appellate-counsel claim must itself be exhausted and
not procedurally exhausted in state court. Edwards v. Carpenter, 529 U.S. 446, 453 (2000).
Jefferson did attempt to raise this claim of ineffective assistance of appellate counsel in an
application to reopen his appeal filed with the Ohio Court of Appeals; however, the court denied
his application as untimely. That is an adequate and independent state procedural ground resulting
in default of his ineffective-assistance-of-appellate-counsel claim. See Parker v. Bagley, 543 F.3d
859, 862 (6th Cir. 2008). To the extent that Jefferson argues that his pro se and incarcerated status,
as well as his ignorance of the law, prevented him from timely filing his application to reopen, this
argument does not provide cause to excuse his procedural default. See Bonilla v. Hurley, 370 F.3d
494, 498 (6th Cir. 2004). Additionally, Jefferson did not appeal the intermediate appellate court’s
denial of his application to the Ohio Supreme Court, which constitutes a separate procedural
default of this claim. See O’Sullivan, 526 U.S. at 845.

Case: 20-3541

Document: 11-2

Filed: 10/30/2020

Page: 4

No. 20-3541
-4In his habeas petition, Jefferson also raised ineffective-assistance-of-trial-counsel claims
that rely on evidence outside the trial record. Ohio law recognizes that these claims generally
should be raised for the first time in a state post-conviction petition. Hill, 842 F.3d at 936;
McGuire, 738 F.3d at 751. Jefferson did raise these claims in his first post-conviction petition
filed in the trial court, and that court denied his petition. However, Jefferson failed to appeal the
denial, which results in a procedural default of these claims. See O ‘Sullivan, 526 U.S. at 845. In
an attempt to demonstrate cause excusing this default, Jefferson alleges that he never received
notice of the trial court’s denial of this petition, and the record reveals that some mail from the
court’s clerk to Jefferson was returned because of an insufficient address.
Even if this court assumes that Jefferson has made a substantial showing of cause to excuse
the procedural default of these ineffective-assistance-of-counsel claims, he still must show that
jurists of reason would find it debatable whether the district court was wrong to have found a lack
of prejudice. See Slack, 529 U.S. at 484. Jefferson argues that his trial counsel rendered ineffective
assistance by failing to call several witnesses. However, as the district court noted, Jefferson has
made no showing regarding the alleged content of their testimony; consequently, he has not shown
how he was prejudiced by the failure to call them at trial. Reasonable jurists would not find it
debatable whether the district court was wrong to find insufficient prejudice to excuse default.
For his second claim, Jefferson alleges a lack of sufficient evidence to support his
convictions. The magistrate judge concluded that Jefferson had procedurally defaulted this claim
as it applied to his weapons-under-a-disability conviction.

Jefferson did not challenge that

conclusion in his objections to the magistrate judge’s report, and the district court relied on this
failure to object to determine that he had waived any argument for this part of the claim. A party
who does not make specific objections to a magistrate judge’s report forfeits his right to appeal
those aspects of the report to which he failed to object. Thomas v. Arn, 474 U.S. 140, 155 (1985);
Frontier Ins. v. Blaty, 454 F.3d 590, 596-97 (6th Cir. 2006).
Jefferson also contends that insufficient evidence existed to support his felonious assault
conviction. In reviewing the sufficiency of the evidence, “the relevant question is whether, after

Case: 20-3541

Document: 11-2

Filed: 10/30/2020

Page: 5

No. 20-3541
-5 viewing the evidence in the light most favorable to the prosecution, any rational trier of fact could
have found the essential elements of the crime beyond a reasonable doubt.” Jackson v. Virginia,
443 U.S. 307, 319 (1979). In doing so, the court does not reweigh the evidence, re-evaluate the
credibility of witnesses, or substitute its judgment for that of the jury. Thomas v. Stephenson, 898
F.3d 693, 698 (6th Cir. 2018); Brown v. Konteh, 567 F.3d 191, 205 (6th Cir. 2009). On habeas
review, even if the federal court would conclude that a rational trier of fact could not have found
the petitioner guilty beyond a reasonable doubt, it must defer to the state appellate court’s
sufficiency of the evidence determination if it was not unreasonable. Thomas, 898 F.3d at 698;
Brown, 567 F.3d at 205. Under Ohio law, a defendant may be convicted of felonious assault for
knowingly causing or attempting to cause physical harm to another by means of a deadly weapon.
Ohio Rev. Code § 2903.11(A)(2); State v. Howard,___N.E.3d___ , 2020 WL 4249953, at *13
(Ohio Ct. App. July 24, 2020). “Firing a gun in a person’s direction is sufficient evidence of
felonious assault.” State v. Markley, No. 9-14-39, 2015 WL 2354569, at *8 (Ohio Ct. App.
May 18,2015) (quoting State v. Jordan, No. 73364, 1998 WL 827588, at *12 (Ohio Ct. App. Nov.
25, 1998)); see also State v. Henderson, 2014 WL 4378751, at *5 (Ohio Ct. App. Sept. 5, 2014).
Jefferson has not made a substantial showing that insufficient evidence supports his
felonious assault conviction.

While Jefferson argues that this conviction is based only on

circumstantial evidence, a conviction may be upheld even if it is based upon nothing more than
circumstantial evidence.

See Stewart v. Wolfenbarger, 595 F.3d 647, 656 (6th Cir. 2010).

Jefferson also maintains that the testimony of a key witness against him was not credible.
However, this court does not “re-evaluate the credibility of witnesses” in determining whether
sufficient evidence supports the defendant’s convictions. Smith v. Nagy, 962 F.3d 192, 205 (6th
Cir. 2020).
For his third claim, Jefferson alleged that his convictions resulted from prosecutorial
misconduct. The magistrate judge concluded that Jefferson procedurally defaulted this claim, and
Jefferson did not challenge this conclusion in his objections to the magistrate judge’s report. The
district court again relied on this failure to object to determine that Jefferson had waived any

Case: 20-3541

Document: 11-2

Filed: 10/30/2020

Page: 6

No. 20-3541
-6argument for this claim. Consequently, Jefferson forfeited his right to appeal that part of the
magistrate judge’s report. See Thomas, 474 U.S. at 155; Frontier Ins., 454 F.3d at 596-97.
Lastly, Jefferson asserts that the police unlawfully seized him and searched his property.
However, since it is undisputed that Jefferson had a full and fair opportunity to litigate this Fourth
Amendment claim in the Ohio courts, it is not cognizable in this federal habeas proceeding. See
Stone v. Powell, 428 U.S. 465, 482 (1976); Goodv. Berghuis, 729 F.3d 636, 639 (6th Cir. 2013).
Accordingly, Jefferson’s application for a COA is DENIED. His IFP motion is DENIED
as moot.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 3:18-cv-00779-PAB Doc #: 39 Filed: 04/27/20 1 of 1. PagelD #: 1813

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
Tanelle Jefferson,

Case No. 3:18CV779
Petitioner,
JUDGE PAMELA A. BARKER

-vs-

Magistrate Judge Kathleen Burke
State of Ohio,
Respondent

JUDGMENT ENTRY

For the reasons stated in the Memorandum Opinion and Order issued this date, Petitioner
Tanelle Jefferson’s Objections are overruled. The Magistrate Judge’s Report & Recommendation
(Doc. No. 34) is ADOPTED as set forth herein, and the Petition is DISMISSED. In addition,
Jefferson’s Motion for Emergency Release (Doc. No. 36) is DENIED.
Further, the Court certifies, pursuant to 28 U.S.C. § 1915(a)(3), that an appeal from this
decision could not be taken in good faith, and that there is no basis upon which to issue a certificate
of appealability. 28 U.S.C. § 2253(c); Fed. R. App. P. 22(b).
IT IS SO ORDERED.

Date: April 27, 2020

s/Pamela A. Barker
PAMELA A. BARKER
U. S. DISTRICT JUDGE

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 lof39. PagelD#: 1774

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO

Case No. 3:18cv779

Tanelle Jefferson,
Petitioner,

JUDGE PAMELA A. BARKER

-vs-

Magistrate Judge Kathleen Burke
State of Ohio,
Respondent
MEMORANDUM OPINION AND
ORDER
Petitioner Tanelle Jefferson, proceeding pro se, seeks a writ of habeas corpus under 28 U.S.C.
§ 2254 concerning his state court conviction in the matter of State v. Jefferson, Lucas County Court
of Common Pleas Case No. G4801-CR-0201601280. (Doc. Nos. 1, 22.) This matter is before the
Court upon the Report & Recommendation (“R&R”) of Magistrate Judge Kathleen Burke (Doc. No.
34), which recommends that the Petition be denied. Magistrate Judge Burke also recommends that
Petitioner’s Motions for Appointment of Counsel (Doc. No. 16), for Discovery (Doc. Nos. 17, 25),
and to Expand the Record (Doc. Nos. 24, 31) be denied.
Petitioner has filed Objections to the R&R. (Doc. No. 35.) In addition, Petitioner has filed a
Motion for Emergency Release due to the COVID-19 pandemic. (Doc. No. 36.)
For the following reasons, Petitioner’s Objection (Doc. No. 35) is OVERRULED and the
Magistrate Judge’s Report & Recommendation (Doc. No. 34) is ACCEPTED as set forth herein.
Petitioner’s Motion for Emergency Release (Doc. No. 36) is DENIED.

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 2 of 39. PagelD#:1775

I.

Relevant Procedural History
The Court of Appeals for the Sixth District of Ohio (hereinafter “state appellate court”)

summarized the facts underlying Jefferson’s state court conviction as follows:
{f 2} On February 12, 2016, appellant was indicted on one count of felonious assault
in violation of R.C. 2903.11(A)(2) and (D), a felony of the second degree, and one
count of having weapons while under disability in violation of R.C. 2923.13(A)(3), a
felony of the third degree. Based upon the allegation that appellant committed the
felonious assault while in possession of a firearm, a firearm specification was attached
to the felonious assault under R.C. 2941.145.
(If 3} Thereafter, appellant entered pleas of not guilty to the aforementioned charges,
and the matter proceeded to discovery. Following pretrial proceedings and motion
practice, a two-day jury trial commenced on July 18, 2016.
(If 4} At trial, the state first presented the testimony of appellant's wife, Jeanette Ervin.
Ervin and appellant were married in December 2015. According to Ervin, the marriage
“started out fun,” but eventually became abusive. Specifically, Ervin stated: “Well,
after being together for a while, I noticed some changes in [appellant]. He would
always grab on my clothes, rough me up, and he had that temper about [himself] and
I would have to fight him off.” Due to the abuse that was existent within their marriage,
appellant and Ervin resided separately.
{] 5} Three months into the marriage, Ervin decided that it was time to end her
relationship with appellant. After Ervin informed appellant of her decision to end the
marriage, appellant asked Ervin to come to his house so that they could talk about
possibly staying together. Ervin noticed that appellant was drinking from a bottle of
Hennessy brandy when she arrived at his house. During the discussion, Ervin also
noticed a handgun sitting on a nearby table.
(T[ 6} When Ervin informed appellant that she was leaving him, he told her that she
was not going anywhere. Ervin then attempted to exit appellant's home. At trial, Ervin
recounted the ensuing incident as follows:
And as I'm trying to get out the door, the front door, he's blocking me. So I break
and run through the dining room to the kitchen to go down these steps to get
away from him. And he put his foot on the back door and said, you're not going
anywhere.

1 The Court’s recitation of the relevant procedural history is not intended to be exhaustive. Rather, the Court will set forth
only that procedural history necessary to a resolution of the pending Objections.

2

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 3 of 39. PagelD #: 1776

All of a sudden he [started] screaming and hollering and I'm just begging him,
please. I called him Tee Jay. Tee Jay, let me go. I want to go home, leave me
alone. I don't want to be here with you anymore. Let me go.
He kept saying, no, screaming and hollering, still got ahold of my clothes, to my
clothes. I go back up the steps to the kitchen and the voice that came out of him
was something like I've never heard before, like demons. He was just screaming
and hollering at me.
And I knew at that point something bad is getting ready to happen because I
already knew he had that gun.
So I tried to keep quiet and not say anything and I'm—he got me backed up there
against this thing and I'm like Tee Jay, let me go; I want to go home.
So I managed—he kept telling me I wasn't going to go. I managed to get around
him, go through the dining room. He's going to grab me again. Still got my
clothes. By that time this weapon, this gun, hits the floor. I say, it's time for me
to break and run for my life.
I ran out that door so fast. I was trembling. I was scared to death. I feared for my
life.
As I'm running out the door going down the steps I hear a pow. I'm like, oh, my
God, he done shot at me, am I shot? I run around to my car. I'm shaking. I'm
trembling. I'm falling down to my knees. The [key is] dropping out of my hand.
I'm trying to get in my car to get away and I look through my car window to see
where he was at after he shot at me. He's standing on this porch like it's nothing.
He [turns] around and he walks back in the house.
{^| 7} Upon further questioning, Ervin acknowledged that she did not actually witness
appellant shoot at her because she was running away from him at the time.
Nonetheless, appellant was insistent that she heard appellant fire a shot from where he
was standing on the front porch of his home. When asked how she could be certain
that appellant fired a shot at her, Ervin stated: “Because I heard the pow and I knew
he had a gun. And he was angry.”
{f 8} As its next witness, the state called Brian Heath. Heath and his partner, Scott
Bruhn (whom the state called as its third witness), were the first officers to arrive on
the scene after Ervin called 911. Initially, Heath set up a perimeter around appellant's
house. Meanwhile, Bruhn questioned Ervin, who informed him that appellant had just
shot at her and was still inside the home. Eventually, Heath and Bruhn took appellant
3

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 4 of 39. PagelD #: 1777

into custody. Upon further questioning, Ervin explained to Bruhn that appellant had
shot at her from the front porch of the home.
{*[[ 9} After learning that appellant fired a shot at Ervin from his front porch, Bruhn
alerted the detective bureau and began searching the area around the porch for a shell
casing. Bruhn was accompanied by another officer, Michael Watson. Ultimately,
Watson discovered one Homady .25 ACP caliber spent shell casing on top of the grass
five to six feet from the edge of the front porch. According to Watson, the location of
the shell casing was consistent with Ervin's contention that appellant fired at her while
standing on the front porch.
(If 10} For its fourth witness, the state called Nathaniel Sahdala. Sahdala also
responded to the scene after Ervin called 911. After appellant was arrested and taken
into custody, Sahdala entered appellant's home. Upon entry, Sahdala entered the
dining room, where he observed a portion of carpet that was folded over with the rear
half of a handgun visible underneath the carpet. Sahdala then rolled back the rest of
the carpet that was folded and discovered two additional firearms, both of which were
loaded. Thereafter, Sahdala retrieved the firearms and unloaded the ammunition. One
of the firearms was a .25 caliber handgun, which contained Homady .25 ACP
ammunition matching the shell casing that Watson discovered next to the front porch.
{| 11} As its final witness, the state called detective Sherri Wise. Wise arrived at
appellant's residence and was involved in the removal of the firearms from the dining
room. Wise eventually interviewed appellant at the police station, where appellant
admitted to having fired a weapon earlier in the day. Initially, appellant insisted that
he shot a possum. However, the type of animal that was allegedly shot changed several
times during the course of Wise's interrogation of appellant. Further, appellant claimed
that he shot the animal with a Winchester rifle, which was not located at the residence.
Ultimately, the three handguns that were removed from the residence were tested and
found to be operable. Notably, Wise corroborated the previous testimony that the .25
caliber handgun that was removed contained ammunition matching the spent shell
casing found on the lawn adjacent to the front porch.
{f 12} At the close of the state's case-in-chief, appellant moved for an acquittal under
Crim.R. 29, arguing that the state failed to provide sufficient evidence as to the
felonious assault count. After hearing arguments, the court denied appellant's motion.
The court then provided instructions to the jury, and deliberations began. Ultimately,
the jury found appellant guilty of felonious assault and having weapons while under
disability, as well as the attendant firearm specification. The court immediately
proceeded to sentencing, ordering appellant to serve 7 years in prison for the felonious
assault count and 30 months in prison for the having weapons while under disability
count. The court ordered the sentences to be served consecutive to one another, and
consecutive to the mandatory 3-year sentence imposed pursuant to the firearm
4

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 5 of 39. PagelD#:1778

specification, for a total prison sentence of 12.5 years. Appellant's timely appeal
followed.
State v. Jefferson, 2017 WL 3575607 at ** 1-3 (Ohio Ct. App. 6th Dist. Aug. 18, 2017).
Jefferson challenged his conviction and sentence on direct appeal, raising the following two
grounds for relief:
I.

The trial court erred to the prejudice of appellant by denying his Rule 29
motion upon completion of the State’s case in chief.

II.

Appellant’s conviction was against the manifest weight of the evidence
produced at trial.

(Doc. No. 28-1, Exh. 9.) On August 18, 2017, the state appellate court affirmed Jefferson’s
conviction and sentence. See State v. Jefferson, 2017 WL 3575607 (Ohio Ct. App. 6th Dist. Aug. 18,
2017).
On October 2, 2017, Jefferson, proceeding pro se, filed a notice of appeal with the Supreme
Court of Ohio. (Doc. No. 28-1, Exh. 12.) In his memorandum in support of jurisdiction, Jefferson
raised the following propositions of law:
I.

Due Process

II.

Ineffective Assistance of Counsel

(Doc. No. 28-1, Exh. 13.) The Supreme Court of Ohio declined to accept jurisdiction on January 31,
2018. (Doc. No. 28-1, Exh. 14.)
Meanwhile, on December 1, 2017, Jefferson filed a pro se Application to Reopen his Appeal
in the state appellate court pursuant to Ohio App. R. 26(B). (Doc. No. 28-1, Exh. 15.) Therein,
Jefferson argued that his appellate counsel was ineffective for not raising ineffective assistance of
trial counsel and violation of due process of law. (Id.) On January 11, 2018, the state appellate court

5

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 6 of 39. PagelD #: 1779

denied Jefferson’s Application to Reopen on the grounds that it was untimely and Jefferson had not
demonstrated good cause for the untimely filing. (Doc. 28-1, Exh. 16.)
The record reflects Jefferson did not appeal from the state appellate court’s denial of his 26(B)
Application.
Jefferson then proceeded to file several pro se petitions to vacate or set aside judgment of
conviction and sentence, as well as various post-judgment motions. In his first Petition to Vacate or
Set Aside Judgment of Conviction, Jefferson raised the following two claims:
1. Statement of constitutional claim:
Fifth and Fourteen Amendments, U.S. Constitution; Section 16, Article 1, Ohio
Constitution Due Process right was violated my trial and prosecution. Trial Transcripts of Proceeding (TP) Vol 1/2.
Short statement of facts supporting the claim:
A prosecutor is required to prove every element of the crime with which a defendant
is charged beyond a reasonable doubt. The Winship “Beyond a reasonable doubt.”
Sullivan v. La, 508 U.S. 275, 278 (1993). Count 1 Felonious assault with a gun
specification means a person knowingly attempt to or did cause harm to a person.
There is no physical proof or evidence that indicated I could harm or actually harm
Jeanette Ervin on the night of February 3rd, 2016 besides her testimony, in which she
testified I roughed her up 2 months before her surgery in May, 2016 (TP Vol 1/2 pl73)
and Lucas County Correctional’s records have actual fact that was impossible for me
to do because I was in custody. Its unconstitutional for a prosecutor to make
presumptions in criminal prosecution. Estelle v. McGuire, 502 U.S. 62, 72 (1991)
Sandstrom v. Mont., 442 U.S. 510, 514 (1979). State witness, expert of the law, Toledo
police officer Mr. Brian Heath stated (TP Vol. 1/2 p212 line 3-5) “Initially there was
nobody outside. If I can recall correctly, the victim-caller was in her car and come to
the location once we arrived.” This fact that supports my story she wasn’t there at
2055 Elliott at the time she call 9-1-1 meaning her accusations is false also and it was
proven in court I didn’t reside or have ownership to 2055 Elliott Ave another violation,
Miranda v. Arizona, prosecutorial misconduct significant judicial error and claims of
insufficient evidence.
2. Statement of constitutional claim:

6

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 7 of 39. PagelD #: 1780

Sixth Amendment Right to Effective assistance of counsel. Right to Expert Witness
Testimony. (U.C. Const., Ohio Const.) Palacios v. Burgue, 589 F.3d 347, 352-53 (5th
Cir. 2010).
Short statement of facts supporting the claim:
Mr. Daniel Arnold refused summon Mr. Jefferson’s eye witness (Ward v. Dretke)
LaShanna Haney and he sent 3 of Mr. Jefferson’s witness in court on the first of trial.
Also, Mr. Arnold failed summon Medical and Ballistic experts.
(Doc. No. 28-1, Exh. 17.) The State of Ohio opposed Jefferson’s Petition. (Doc. No. 28-1, Exh. 19.)
The state trial court subsequently appointed counsel, who filed a reply in support of Jefferson’s
Petition. (Doc. No. 28-1, Exhs. 20, 21.)
On December 20, 2017, the trial court denied Jefferson’s Petition, as follows:
The court construes Defendant's petition as a motion for post-conviction relief. As
such, claims which have been or could have been adjudicated by the appellate court
are barred. Defendant claims his convictions are against the-manifest weight of the
evidence, and provides nothing outside the record in support of this contention. The
appellate court rejected Defendant's manifest weight challenge in direct appeal.
Defendant claims further that his counsel was ineffective, but again provides nothing
outside the record to support this contention. Finally, Defendant's request for a
ballistics expert is not well taken because even if the shell casing is found not to have
come from Defendant's gun, that does not automatically mean Defendant did not shoot
at the victim.
(Doc. No. 28-1, Exh. 22.) The record reflects Jefferson did not appeal the trial court’s ruling.
Jefferson then filed a Motion to Obtain New Evidence and, shortly thereafter, a Successive
Petition to Vacate or Set Aside Judgment, in the state trial court. (Doc. No. 28-1, Exhs. 23,24.) The
trial court denied Jefferson’s Successive Petition as untimely and not subject to exception, and also
denied his Motion to Obtain New Evidence. (Doc. No. 28-1, Exh. 26.) Jefferson filed a Motion for
Reconsideration, as well as several additional post-conviction motions. (Doc. No. 28-1, Exhs. 27,
29, 30, 31.) The trial court denied Jefferson’s motions on October 31, 2018. (Doc. No. 28-1, Exh.
33.) Jefferson did not appeal the trial court’s ruling.
7

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 8 of 39. PagelD #: 1781

On March 17,2018,2 Jefferson filed a pro se Petition for Writ of Habeas Corpus in this Court.
(Doc. No. 1.) Several months later, he filed a Motion to Amend his Petition, as well as a Motion for
a Stay until post-conviction proceedings were exhausted. (Doc. Nos. 6, 7.) While these motions
were still pending, the State filed a Return on Writ. (Doc. No. 9.) Jefferson then filed Motions to
Supplement the Petition, for Appointment of Counsel, and for Discovery. (Doc. Nos. 14, 16, 17.)
On October 29, 2018, the Magistrate Judge issued an Order granting Jefferson’s Motion to
Amend Petition. (Doc. No. 18.) On that same date, the Magistrate Judge also issued an Interim
Report & Recommendation, in which she recommended that Jefferson’s Motion to Stay be denied.
(Doc. No. 19.) The Magistrate Judge’s Interim Report & Recommendation was later adopted by
then-assigned District Judge Benita Pearson. (Doc. No. 29.)
Meanwhile, on November 26, 2018, Jefferson filed an Amended Petition under 28 U.S.C. §
2254, in which he asserted the following grounds for relief:
I.

Ineffective Assistance of Counsel

II.

Insufficient Evidence

III.

Prosecutorial Misconduct

IV.

Search and Seizure

2 Under the mailbox rule, the filing date for a pro se petition is the date that a petitioner delivers it to prison authorities.
See Houston v. Lack, 487 U.S. 266 (1988). While the Petition herein did not arrive at the Court for filing until April 6,
2018, Jefferson states that he placed it in the prison mailing system on March 17, 2018. (Doc. No. 1 at 15.) Thus, the
Court will consider the Petition as filed on March 17, 2018.

8

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 9 of 39. PagelD #: 1782

(Doc. No. 22.)3 The State filed a Return of Writ on January 11,2019, and Jefferson filed his Traverse
on February 1, 2019. (Doc. Nos. 28, 30.) Several months later, on April 4, 2019, Jefferson filed a
Motion to Expand the Record (Doc. No. 31), which the State opposed.
On May 15, 2019, the Magistrate Judge issued an R&R, in which she recommends that the
Petition be denied. (Doc. No. 34.) The Magistrate Judge also recommends that Jefferson’s Motions
for Appointment of Counsel (Doc. No. 16), for Discovery (Doc. Nos. 17, 25), and to Expand the
Record (Doc. Nos. 24, 31) be denied.
This matter was re-assigned to the undersigned on July 1, 2019 pursuant to General Order
2019-13.
Jefferson has filed Objections to the R&R. (Doc. No. 35.) In addition, on April 20, 2020,
Jefferson filed a Motion for Emergency Release due to the COVID-19 pandemic. (Doc. No. 36.)
The State filed a Brief in Opposition the next day. (Doc. No. 37.)
II.

Standard of Review
Parties must file any objections to a report & recommendation within fourteen days of

service. Fed. R. Civ. P. 72(b)(2). Failure to object within this time waives a party’s right to appeal
the district court’s judgment. See Thomas v. Arn, 474 U.S. 140,145 (1985); United States v. Walters,
638 F.2d 947, 949-950 (6th Cir. 1981).
“When a district judge reviews a magistrate judge's resolution of a non-dispositive matter, it
is not a de novo review, as it is in relation to a magistrate judge's recommendation as to a dispositive
matter.” Inhalation Plastics, Inc. v. Medex Cardio-Pulmonary, Inc., 2013 WL 992125 at *6 (S.D. Oh.

3 The supporting facts underlying these claims are set forth in the Magistrate Judge’s May 15, 2019 R&R (Doc. No. 34
at pp. 16-18) and will not be repeated herein.

9

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 10 of 39. PagelD #: 1783

Mar. 13, 2013). Rather, the Magistrate Judge's decision is subject to review under Rule 72(a) and
reversal when it “is clearly erroneous or contrary to law.” 28 U.S.C. § 636(b)(1)(A). See Alvarado
v. Warden, Ohio State Penitentiary, 2018 WL 5783676 at * 1 (N.D. Ohio Nov. 5, 2018); Phillips v.
LaRose, 2019 WL 5729919 at * 2 (N.D. Ohio Nov. 5, 2019).
The clearly erroneous standard applies to factual findings, while legal conclusions are
reviewed under the contrary to law standard. E.E.O.C. v. Burlington N. & Santa Fe Ry. Co., 621
F.Supp.2d 603, 605 (W.D. Tenn. 2009). As the Sixth Circuit has explained, ‘“[a] [factual] finding is
‘clearly erroneous’ when although there is evidence to support it, the reviewing court on the entire
evidence is left with the definite and firm conviction that a mistake has been committed.’” Bisig v.
Time Warner Cable, Inc., 940 F.3d 205, 219 (6th Cir. 2019) (quoting United States v. U.S. Gypsum
Co., 333 U.S. 364,395 (1948)). “An order is ‘contrary to the law’ when it ‘fails to apply or misapplies
relevant statutes, case law, or rules of procedure.’” Id. (quoting United States v. Winsper, 2013 WL
5673617 at *1 (W.D. Ky. Oct. 17, 2013)).
When a petitioner objects to a magistrate judge’s resolution of a dispositive matter, the district
court reviews those objections de novo. Fed. R. Civ. P. 72(b)(3). Specifically, a district judge:
must determine de novo any part of the magistrate judge’s disposition that has been
properly objected to. The district judge may accept, reject, or modify the
recommended disposition; receive further evidence; or return the matter to the
magistrate judge with instructions.
Id. “A party who files objections to a magistrate [judge]’s report in order to preserve the right to
appeal must be mindful of the purpose of such objections: to provide the district court ‘with the
opportunity to consider the specific contentions of the parties and to correct any errors immediately.’”
Jones v. Moore, 2006 WL 903199 at * 7 (N.D. Ohio April 7, 2006) (citing Walters, 638 F.2d at 94950).
10

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 11 of 39. PagelD #: 1784

III.

Analysis
A.

Non-Dispositive Matters

Jefferson objects to the Magistrate Judge’s denial of his Motions for Appointment of Counsel,
Discovery, and Expansion of the Record. (Doc. No. 35 at pp. 1-3.) As these matters are nondispositive, the Court reviews Jefferson’s Objections under the clearly erroneous or contrary to law
standard, set forth above.
1.

Motion for Appointment of Counsel (Doc. No. 16.)

Jefferson first objects to the Magistrate Judge’s denial of his Motion for Appointment of
Counsel. (Doc. No. 35 at pp. 1.) He asserts that his Motion should have been granted because the
Sixth Amendment right to counsel applies to the instant habeas proceedings. (Id.)
Jefferson’s objection is without merit. As the Magistrate Judge correctly noted, it is well
established that a habeas corpus proceeding is civil in nature and the Sixth Amendment right to
counsel afforded for criminal proceedings does not apply. See Cobas v. Burgess, 306 F.3d 441, 444
(6th Cir. 2002) (citing McCleskey v. Zant, 499 U.S. 467,495 (1987)). See also Stockman v. Berghuis,
627 Fed. Appx. 470, 475 (6th Cir. 2015); Ross v. Coleman, 2019 WL 8333533 at * 11 (N.D. Ohio
July 1,2019).
Moreover, Jefferson has not argued or shown that any other circumstances exist that would
render the Magistrate Judge’s denial of his Motion for Appointment of Counsel clearly erroneous or
contrary to law. A district court must appoint counsel for an indigent petitioner when an evidentiary
hearing is required or when necessary for the petitioner’s effective utilization of discovery.4 See

4 In addition, an indigent petitioner seeking to vacate or to set aside a death sentence has a statutory right to appointed
counsel, as well as expert and investigative services. 18 U.S.C. § 3599(a)(2). Here, however, Jefferson is not seeking to
vacate or set aside a death sentence.

11

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 12 of 39. PagelD#:1785

Habeas Rule 6(a).5 In all other circumstances, a district court has considerable discretion in deciding
whether to appoint counsel. The Sixth Circuit has noted, however, that appointment of counsel in
non-capital habeas proceedings is justified only in “exceptional” circumstances. See Stockman, 627
Fed. Appx. at 475 (stating the privilege of appointment of counsel in habeas proceedings is justified
“only in exceptional circumstances.”) (citing Lavado v. Keohane, 992 F.2d 601, 605-06 (6th
Cir.1993)).
Here, Jefferson does not articulate any specific reasons explaining why he believes he is
entitled to appointment of counsel. Jefferson has not argued in his Objection that an evidentiary
hearing is warranted and, as discussed infra, the Court finds that the Magistrate Judge did not err in
denying Jefferson’s Motion for Discovery. Lastly, Jefferson has not otherwise shown that this is an
exceptional case warranting the appointment of counsel. Jefferson does not assert that he labors under
disabilities unusual for a pro se petitioner; nor are the issues raised in his Petition unusually complex.
Indeed, as the Magistrate Judge noted, Jefferson has shown that he is capable of representing himself
in these proceedings, having filed multiple motions herein including seeking (and receiving) leave to
file an Amended Petition.
Accordingly, the Court finds that the Magistrate Judge’s denial of Jefferson’s Motion for
Appointment of Counsel is neither clearly erroneous or contrary to law. Jefferson’s Objection is
without merit and overruled.
2.

Motions for Discovery (Doc. Nos. 17,25)

5 See 28 U.S.C. § 2254(h) (“Appointment of counsel under this section shall be governed by section 3006A of title 18.”).
18 U.S.C. § 3006A(a)(2)(B) provides in part: “Whenever the United States magistrate judge or the court determines that
the interests of justice so require, representation may be provided for any financially eligible person who ... is seeking
relief under [§ 2254].”

12

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 13 of 39. PagelD#:1786

Jefferson next objects to the Magistrate Judge’s denial of his Motion for Discovery (Doc. No.
17) and Motion to Subpoena Toledo Police Report6 (Doc. No. 25.) See Doc. No. 35 at p. 2-3.
Jefferson asserts that he “never had his discovery or seen all the evidence” and, therefore, he has been
unfairly prejudiced in his ability to defend himself in this case. (Doc. No. 35 at p. 2.) It is not entirely
clear what exactly Jefferson seeks to obtain in discovery, but he does state generally that “the
discovery police report, ballistic results, as well as the weapon’s backgrounds, Brady Act—the
background on the weapons are relevant to [his] case.” (Id.) Jefferson also suggests that he never
received a DVD of an interrogation conducted of him by Detective Wise. (Id.)
“[UJnlike the usual civil litigant in federal court, [a habeas petitioner] is not entitled to
discovery as a matter of ordinary course.” Bracy v. Gramley, 520 U.S. 899, 904 (1997). Pursuant to
Rule 6 of the Rules Governing Section 2254 Cases, “[a] judge may, for good cause, authorize a party
to conduct discovery under the Federal Rules of Civil Procedure and may limit the extent of
discovery.” See Rule 6(a) of the Rules Governing Section 2254 Cases. “Good cause” for discovery
exists only “where specific allegations before the court show reason to believe that the petitioner may,
if the facts are fully developed, be able to demonstrate that he is...entitled to relief.” Bracy, 520 U.S.
at 908-09 (quoting Harris v. Nelson, 394 U.S. 286, 300 (1969)) (ellipsis in original). “The burden
of demonstrating the materiality of the information requested is on the moving party.” Williams v.
Bagley, 380 F.3d 932, 974 (6th Cir. 2004) (quoting Stanford v. Parker, 266 F.3d 442, 460 (6th Cir.
2001)). Habeas Rule 6 does not “sanction fishing expeditions based on a petitioner’s conclusory

6 The Toledo Police Report sought by Jefferson is dated December 2, 2015, two months prior to the offense for which he
was convicted. According to Jefferson, this Reports relates to a call he made to the police asking for help because Ms.
Ervin was attacking him and he was unable to get away. (Doc. No. 25.) In his Motion to Subpoena Toledo Police Report,
Jefferson argued that this Report is relevant because it shows that “Ervin was the violent person and . . . Jefferson was
the victim who was physically impaired and needed help from her.” (Id.)

13

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 14 of 39. PagelD#:1787

allegations.” Williams, 380 F.3d at 974. Instead, a habeas petitioner must show good cause for
discovery through “specific allegations of fact.” Id.
The Court finds that the Magistrate Judge’s denial of Jefferson’s Motions for Discovery and
for the Toledo Police Report (Doc. Nos. 17, 25) was not clearly erroneous or contrary to law.
Jefferson has not sufficiently demonstrated that the discovery he seeks is material, or otherwise set
forth specific allegations showing that, if the facts are fully developed, he may be entitled to relief.
Moreover, to the extent Jefferson is arguing that the requested discovery is relevant to his sufficiency
of the evidence claim relating to his felonious assault conviction, this claim was considered on the
merits by the state courts. As the Magistrate Judge correctly noted, the United States Supreme Court
has held that “review under § 2254(d)(1) is limited to the record that was before the state court that
adjudicated the claim on the merits.” Cullen v. Pinholster, 563 U.S. 170, 182-183 (2011). To the
extent any of the evidence Jefferson now seeks was not before the state courts, it could not be
considered in these habeas proceedings with respect to his sufficiency of the evidence claim.
Accordingly, the Court, finds that the Magistrate Judge’s denial of Jefferson’s Motions for
Discovery (Doc. Nos. 17, 25) is neither clearly erroneous or contrary to law. Jefferson’s Objection
is without merit and overruled.
3.

Motions to Expand the Record (Doc. Nos. 24, 31)

Jefferson objects generally to the Magistrate Judge’s denial of his Motions to Expand the
Record. (Doc. No. 35 at pp. 3-4.) In particular, he directs this Court’s attention to the documents
attached to his April 4, 2019 Motion to Expand (Doc. No. 31), which appear to consist of a letter
from his counsel (Daniel Arnold) to Jefferson, records from the Toledo Municipal court, an incident
detail report dated February 3, 2016, a record of property search, and what appear to be attorney
14

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 15 of 39. PagelD #: 1788

notes. (Doc. No. 31-1.) It is not entirely clear but Jefferson appears to argue that these documents
are relevant to Ms. Ervin’s credibility.
Under the Rules Governing Section 2254 Cases, a respondent has discretion to attach to his
Answer parts of the record that he considers relevant. See Rule 5(c) of the Rules Governing Section
2254 Cases. Pursuant to Habeas Rule 5, a district court may thereafter “order that the respondent
furnish other parts of the existing transcripts or that parts of untranscribed recordings be transcribed
or furnished.” Id. Moreover, Habeas Rule 7 provides that “[i]f the petition is not dismissed, the judge
may direct the parties to expand the record by submitting additional materials relating to the petition.”
See Rule 7(a) of the Rules Governing § 2254 Cases. Habeas Rule 7 “permits federal habeas corpus
courts to direct the parties to supplement the state court record with materials relevant to the Court's
resolution of the petition.” Lynch v. Hudson, 2010 WL 2076925 at * 2 (S.D. Ohio May 24, 2010).
Interpreting these Rules, the Sixth Circuit has recognized that expansion of the record in habeas cases
“is not mandatory...and is left to the discretion of the trial judge.” Ford v. Seabold, 841 F.2d 677,
691 (6th Cir. 1988). See also Beuke v. Houk, 537 F.3d 618, 653 (6th Cir. 2008); Bates v. Warden,
Chillicothe Correctional Institution, 2015 WL 5299454 at * 5 (S.D. Ohio Sept. 10, 2015).
As an initial matter, the Court notes that Jefferson does not articulate any specific objection
to the Magistrate Judge’s denial of his November 26, 2018 Motion to Expand (Doc. No. 24.) The
Magistrate Judge denied that Motion as moot on the grounds that the records Jefferson sought to
include were subsequently included in the state court record filed by the State with the Return of Writ.
(Doc. No. 34 at p. 5.) Jefferson does not object to or otherwise challenge this finding. Accordingly,
the Court agrees with and adopts the Magistrate Judge’s denial of Jefferson’s November 2018 Motion
to Expand.
15

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 16 of 39. PagelD #: 1789

With respect to Jefferson’s April 4, 2019 Motion to Expand, the Magistrate Judge denied the
Motion on the grounds that “Jefferson has failed to demonstrate that the records he seeks to introduce
could establish a basis upon which federal habeas relief is warranted.” (Doc. No. 34 at p. 6.) This
Court agrees. In his Objection, Jefferson does not sufficiently explain how the evidence attached to
his Motion is relevant to resolution of the instant Petition. Nor does he otherwise articulate any
specific basis for the Court to conclude that the Magistrate Judge’s decision to deny his April 2019
Motion to Expand was either clearly erroneous or contrary to law.
Accordingly, the Court finds that the Magistrate Judge’s denial of Jefferson’s Motions to
Expand the Record (Doc. Nos. 24, 31) is neither clearly erroneous or contrary to law. Jefferson’s
Objection is without merit and overruled.
B.

Dispositive Matters

Jefferson also objects to the Magistrate Judge’s recommendations that the Court (1) dismiss
Grounds One and Three of the Petition as procedurally defaulted; (2) dismiss the portion of Ground
Two relating to Jefferson’s weapons under disability conviction as procedurally defaulted; (3) deny
the portion of Ground Two relating to his felonious assault conviction on the merits; and (4) dismiss
Ground Four on the basis of Stone v. Powell, 428 U.S. 465 (1976).
As these objections relate to dispositive matters, the Court will conduct a de novo review.
1.

Ground One—Ineffective Assistance of Trial Counsel

In Ground One, Jefferson asserts that his trial counsel was constitutionally ineffective because
he (1) improperly advised Jefferson to reject a plea deal and proceed to trial; (2) did not follow
procedures for renewing a Criminal Rule 29(c) motion; (3) did not raise as an issue the fact that
Jefferson told his trial counsel that he realized he knew one of the jurors; (4) did not properly cross16

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 17 of 39. PagelD #: 1790

examine the victim, Jeanette Ervin, and did not make sure that Ms. Ervin was advised of her Fifth
Amendment rights; and (5) overlooked relevant evidentiary matters, including the need to obtain
forensic testing, the need to subpoena an eye witness and present testimony from certain other
witnesses sent home from the trial, the need to introduce the DVD of Detective Wise’s interrogation,
and the need to subpoena medical records. (Doc. No. 22.)
The Magistrate Judge recommends that this Ground be dismissed as procedurally defaulted
because, even though Jefferson could have raised the above alleged instances of ineffective assistance
of trial counsel on direct appeal, he failed to do so. (Doc. No. 34 at p. 23.) The Magistrate Judge
further found that, to the extent that presenting these claims in his first post-conviction proceeding
was the proper avenue for seeking review of those claims, the state trial court denied Jefferson’s post­
conviction petition as untimely and Jefferson failed to appeal that ruling. (Id. ) The Magistrate Judge
concluded that “with no state court remedies still available to him, Jefferson has defaulted the claims.”
(Id. at p. 24.)
The Magistrate Judge then found that Jefferson had failed to show cause or prejudice to excuse
the default. (Id.) Specifically, the Magistrate Judge found that Jefferson could not rely on ineffective
assistance of appellate counsel to excuse the default of Ground One because Jefferson’s ineffective
assistance of appellate counsel claims are themselves defaulted. (Id. at p. 25.) In this regard, the
Magistrate Judge noted that the state appellate court denied Jefferson’s 26(B) Application as
untimely; Jefferson failed to appeal that ruling to the Supreme Court of Ohio; and there was no
procedural avenue for him to now exhaust the claims raised in his Application. (Id.)
The Magistrate Judge then found that Jefferson could not demonstrate cause or prejudice to
excuse the default of his ineffective assistance of appellate counsel claims. (Id. at p. 26.) The
17

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 18 of 39. PagelD #: 1791

Magistrate Judge found that, to the extent Jefferson was seeking to excuse his untimely 26(B)
Application on the grounds of lack of legal training and/or mental or physical issues caused by his
epilepsy, Jefferson had failed to show that either of these issues prevented him from timely filing his
26(B) Application or appealing the denial of his 26(B) Application to the Supreme Court of Ohio.
{Id.)
The Magistrate Judge went on to find that “to the extent Jefferson claims that his failure to
appeal the denial of his post-conviction petition (that included claims of ineffective assistance of trial
counsel (Doc. 28-1, p. 126)) should be excused because his post-conviction counsel, who was
appointed by the trial court, belatedly notified him of the trial court’s denial of his post-conviction
petition due to the trial court having an incorrect office address for his post-conviction counsel (Doc.
28-1, pp. 156-158), his claim should fail.” {Id. at p. 27.) In this regard, the Magistrate Judge noted
that the December 2017 Order denying his first post-conviction petition was also sent directly to
Jefferson, as was a copy of the docket. {Id)
Lastly, the Magistrate Judge found that Jefferson’s procedural default of Ground One could
not be excused on the basis of actual innocence because Jefferson has not presented any evidence
showing factual innocence. {Id. at p. 28.)
In his Objection, Jefferson argues that “[a]ll three counsel’s performance prejudiced
Jefferson’s outcome in these proceedings.” (Doc. No. 35 at p. 6.) He claims that his trial counsel
violated the Ohio Rules of Professional Conduct when he advised Jefferson to reject the State’s threeyear plea deal. {Id.) Jefferson then asserts as follows:
Jefferson’s appeal counsel failed to challenge ineffective assistance of trial on direct
appeal but the Sixth District Court of Appeals denied it as untimely. North Central
Correctional Complex’s mailroom failed to timely mail. .. Jefferson’s 26(B) Petition
due to lack of funds in his account. Dorn v. Lajler, 601 F.3d 439, 444-445 (6th Cir.
18

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 19 of 39. PagelD #: 1792

2010). Lucas County Clerk of Court mailed this judgment to Jefferson’s post­
conviction counsel not him. Cambell v. U.S., 686 F.3d 353, 360 (6th Cir. 2012).
Jefferson have learned more about law and legal procedurals now then he knew during
his direct appeal and post-conviction so that [is] why Jefferson is able [to] file motions
and challenge his constitutional rights. There is no procedural bar because Jefferson
failed to raise Ineffective Assistance of Counsel on direct appeal or to the appeal court
when Jefferson is actually innocent.
{Id. at p. 7-8.)
Federal courts will not consider the merits of procedurally defaulted claims, unless the
petitioner demonstrates cause for the default and prejudice resulting therefrom, or where failure to
review the claim would result in a fundamental miscarriage of justice. See Lundgren v. Mitchell, 440
F.3d 754, 763 (6th Cir. 2006). A claim may become procedurally defaulted in two ways. Id. First,
a petitioner may procedurally default a claim by failing to comply with state procedural rules in
presenting his claim to the appropriate state court. Id.; see also Maupin v. Smith, 785 F.2d 135, 138
(6th Cir. 1986). If, due to petitioner's failure to comply with the procedural rule, the state court
declines to reach the merits of the issue, and the state procedural rule is an independent and adequate
grounds for precluding relief, the claim is procedurally defaulted. Id.
Second, a petitioner may also procedurally default a claim by failing to raise and pursue that
claim through the state's “ordinary appellate review procedures.” O'Sullivan v. Boerckel, 526 U.S.
838, 848 (1999). If, at the time of the federal habeas petition, state law no longer allows the petitioner
to raise the claim, it is procedurally defaulted. Engle v. Isaac, 456 U.S. 107, 125 n. 28 (1982); see
also Coleman v. Thompson, 501 U.S. 722, 731-32 (1991); Lovins v. Parker, 712 F.3d 283, 295 (6th
Cir. 2013) (“a claim is procedurally defaulted where the petitioner failed to exhaust state court
remedies, and the remedies are no longer available at the time the federal petition is filed because of
a state procedural rule.”)
19

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 20 of 39. PagelD #: 1793

A petitioner's procedural default, however, may be excused upon a showing of “cause” for
the procedural default and “actual prejudice” from the alleged error. See Maupin, 785 F.2d at 138
39. “Demonstrating cause requires showing that an ‘objective factor external to the defense impeded
counsel's efforts to comply’ with the state procedural rule.” Franklin v. Anderson, 434 F.3d 412, 417
(6th Cir. 2006) (quoting Murray v. Carrier, All U.S. 478, 488).. Prejudice does not occur unless
petitioner demonstrates “a reasonable probability” that the outcome of the trial would have been
different. See Mason v. Mitchell, 320 F.3d 604, 629 (6th Cir. 2003) (citing Strickler v. Greene, 521
U.S. 263, 289 (1999)).
For the following reasons, the Court finds that Jefferson’s first habeas ground for relief is
procedurally defaulted. In this ground, Jefferson raises numerous claims of alleged ineffective
assistance of trial counsel. To the extent one or more of these claims rely on evidence in the trial
record, Jefferson defaulted these claims because he failed to properly raise them on direct appeal. As
noted above, Jefferson did not raise any ineffective assistance of trial counsel claims in his direct
appeal to the state appellate court. While he did assert an ineffective assistance of trial counsel claim
in the next step of his direct appeal to the Supreme Court of Ohio, this does not save his claims from
being barred as procedurally defaulted. See e.g., Smith v. Warden, 2010 WL 3075166 at * 14 (S.D.
Ohio April 14, 2010) (finding claims defaulted where, although petitioner raised claims to Ohio
Supreme Court on direct appeal, he failed to first present them to the state appellate court);7 Tharp v.

7 The court in Smith, supra succinctly summarized the law on this issue as follows: “Although petitioner raised these
claims in his appeal to the Ohio Supreme Court, that action in itself did not preserve the claims for habeas review. ‘The
Ohio Supreme Court has stated that it will not consider constitutional claims not raised and preserved in the Ohio Court
of Appeals. State v. Phillips, 27 Ohio St.2d 294, 272 N.E.2d 347, 352 (1971); State v. Lynn, [5 Ohio St.2d 106, 214
N.E.2d 226, 229 (1966).]” Leroy v. Marshall, 757 F.2d 94, 99 (6th Cir.1985) (quoting Fornash v. Marshall, 686 F.2d
1179, 1185 n. 7 (6th Cir.1982), cert, denied, 460 U.S. 1042, 103 S.Ct. 1439, 75 L.Ed.2d 796 (1983)). Since petitioner
failed to raise the claims set forth in Grounds Two, Three, Four, Five, Eight, and Nine in the Ohio Court of Appeals, these
claims were not preserved for appeal to the Ohio Supreme Court. Leroy, 757 F.2d at 99. District courts within the Sixth

20

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 21 of 39. PagelD#:1794

Eppinger, 2019 WL 7494383 at * 7 (N.D. Ohio Dec. 9, 2019) (same). Because Jefferson has not
argued or shown that state law would now permit him to raise these claims, the Court finds that they
are defaulted. See Williams v. Anderson, 460 F.3d 789, 806 (6th Cir. 2006).
In his Objection, Jefferson appears to argue that his default of these on-the-record ineffective
assistance of trial counsel claims should be excused on the basis of ineffective assistance of appellate
counsel. The Court rejects this argument. While ineffective assistance of appellate counsel may
serve as “cause” to excuse a procedural default, it may only do so if the ineffective assistance of
appellate counsel claim is not itself defaulted. See Edwards v. Carpenter, 529 U.S. 446, 450-451
(2000); Wogenstahl v. Mitchell, 668 F.3d 307, 321 (6th Cir. 2012). Because the state appellate court
denied Jefferson’s 26(B) Application on procedural grounds and Jefferson failed to appeal that denial,
the ineffective assistance of appellate counsel claims raised therein are themselves procedurally
defaulted and may not serve as “cause” to excuse the default of Jefferson’s on-the-record ineffective
assistance of trial counsel claims.
Jefferson then appears to argue that the default of his ineffective assistance of appellate
counsel claims should be excused because “North Central Correctional Complex’s mailroom failed
to timely mail.. . Jefferson’s 26(B) Petition due to lack of funds in his account.” (Doc. No. 35 at p.
7.) The Court rejects this argument. Even assuming arguendo that the alleged failure of the prison
to mail Jefferson’s 26(B) Application could serve as cause to excuse this default, Jefferson offers no
explanation for his further failure to timely appeal the state appellate court’s denial of that

Circuit ‘have consistently found Ohio's procedural rule requiring claims to be presented in the lower appellate court prior
to being presented to the Ohio Supreme Court to be an adequate and independent state ground upon which the state can
rely to foreclose review of a federal constitutional claim.’ Shank v. Mitchell, No. 2:00-cv-17, 2008 WL 4449567, at *43
(S.D. Ohio Sept.30, 2008) (Marbley, J.) (citations omitted). Thus, Grounds Two, Three, Four, Five, Eight, and Nine of
the petition are procedurally defaulted.” Smith, 2010 WL 3075166 at * 14.

21

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 22 of 39. PagelD#:1795

Application. Because Jefferson has not demonstrated cause to excuse the default of his ineffective
assistance of appellate counsel claims occasioned by his failure to appeal the state appellate court’s
ruling, he cannot use ineffective assistance of appellate counsel to excuse the default of his on-therecord ineffective assistance of trial counsel claims.
Several of Jefferson’s ineffective assistance of trial counsel claims set forth in Ground One
could be construed as relying on evidence outside the trial record. To the extent these claims could
have been properly raised in a post-conviction petition, the Court finds they are also procedurally
defaulted. As detailed above, Jefferson raised certain ineffective assistance of trial counsel claims in
his first post-conviction, filed October 4, 2017. (Doc. No. 28-1, Exh. 17.) Specifically, Jefferson
raised the following ineffective assistance of trial counsel claims:
Mr. Daniel Arnold refused [to] summon Mr. Jefferson’s eye witness (Ward v. Dretke)
LaShanna Haney and he sent 3 of Mr. Jefferson’s witnesses] in court on the first of
trial [sic]. Also, Mr. Arnold failed [to] summon Medical and Ballistic experts.
{Id. at PageID#1084) The three witnesses are identified in the Post-Conviction Petition as
“eyewitnesses” Tyra Clemmons, Sierra Dotson, and Vaughan Hoblet, CNP. {Id.) No affidavits from
either Ms. Haney, Ms. Clemmons, Ms. Dotson, or Nurse Hoblet are attached to Jefferson’s PostConviction Petition.
The state trial court appointed counsel, Autumn Adams, to assist Jefferson with his Petition.
Ms. Adams subsequently filed a Reply Brief in support of Jefferson’s Petition. (Doc. No. 28-1, Exhs.
20, 21.) That Reply did not contain any further information regarding what Ms. Haney, Ms.
Clemmons, Ms. Dotson, or Nurse Hoblet would have testified to, nor did it attach any affidavits or
other evidence from or relating to these individuals. {Id)

22

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 23 of 39. PagelD #: 1796

The state trial court denied Jefferson’s Petition on December 20, 2017. (Doc. No. 28-1, Exh.
22.) Jefferson did not appeal the state court’s ruling and may no longer do so, as Ohio does not permit
delayed appeals in post-conviction proceedings.8 See Wright v. Lazaroff, 643 F. Supp.2d 971, 987
(S.D. Ohio 2009) (“The Supreme Court of Ohio has specifically held that “a delayed appeal pursuant
to App. R. 5(A) is not available in the appeal of a post-conviction relief determination ...”) (citing
State v. Nichols, 463 N.E.2d 375, 378 (1984)); Carley v. Hudson, 563 F. Supp.2d 760, 775 (N.D.
Ohio 2008) (same); Scott v. Warden, Pickaway Correctional Inst., 2014 WL 29514 at * 6 (S.D. Ohio
Jan. 3,2014) (finding claim procedurally defaulted because petitioner failed to appeal the trial court’s
denial of his post-conviction petition and petitioner could no longer appeal because “Ohio does not
permit delayed appeals in post-conviction proceedings.”) See also Nesser v. Wolfe, 2010 WL 1141006
at *4 (6th Cir. March 25, 2010) (holding that “Ohio does not permit delayed appeals in postconviction
proceedings, and this is an adequate and independent ground upon which to deny relief.”). Thus, the
Court finds that the outside-the-record ineffective assistance of trial counsel claims that were raised
in Jefferson’s first Post-Conviction Petition are procedurally defaulted.
In his Objection, Jefferson appears to assert that the default of these claims should be excused
because the “Lucas County Clerk of Court mailed this judgment to Jefferson’s post-conviction
counsel not him.” (Doc. No. 35 at p.7.) He also appears to implicitly assert that his post-conviction
counsel did not timely inform him of the denial of his petition. (Id.)
Even assuming arguendo that Jefferson could establish cause to excuse the default of these
outside-the-record ineffective assistance of trial counsel claims, these claims are nonetheless barred

8 The Magistrate Judge’s R&R suggests that Jefferson could have taken steps to seek leave to file a delayed appeal from
the denial of his post-conviction, citing Ohio App. R. 5. (Doc. No. 34 at p. 27.) This Court respectfully disagrees and
does not adopt that portion of the Magistrate Judge’s R&R.

23

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 24 of 39. PagelD#:1797

because Jefferson has not demonstrated that he was prejudiced. See Wade v. Timmerman-Cooper,
785 F.3d 1059, 1076 (6th Cir. 2015) (“In order to overcome a procedural default, a habeas petitioner
must demonstrate both cause for the default and actual prejudice from the alleged error of federal
law.”) (citing Coleman, 501 U.S. at 750)). As the Sixth Circuit has explained, “[prejudice, for
purposes of procedural default analysis, requires a showing that the default of the claim not merely
created a possibility of prejudice to the defendant, but that it worked to his actual and substantial
disadvantage, infecting his entire trial with errors of constitutional dimensions.” Jamison v. Collins,
291 F.3d 380, 388 (6th Cir. 2002). See also Fautenberry v. Mitchell, 515 F.3d 614, 629 (6th Cir.
2008). Habeas petitioners cannot rely on conclusory assertions of prejudice to overcome procedural
default; rather, “they must present affirmative evidence or argument as to the precise . . . prejudice
produced.” Lundgren, 440 F.3d at 764 (citing Tinsley v. Million, 399 F.3d 796, 806 (6th Cir. 2005)).
The Court finds that Jefferson has failed to sufficiently demonstrate prejudice. Jefferson has
not articulated how he was prejudiced by trial counsel’s failure to call Ms. Haney, Ms. Clemmons,
Ms. Dotson, or Nurse Hoblet as witnesses. Jefferson does not direct this Court’s attention to any
affidavits or other documentary evidence indicating the nature of the testimony he believes these
witnesses would have offered. Nor does he even describe the alleged content of any such testimony
or evidence. In light of the above, the Court finds that Jefferson has failed to demonstrate prejudice
to excuse the default of the outside-the-record ineffective assistance of trial counsel claims set forth
in his first Post-Conviction Petition.
To the extent Jefferson raised additional outside-the record ineffective assistance of trial
counsel claims in any of his successive post-conviction petitions and/or motions, these claims are
also defaulted. As noted above, the state trial court denied Jefferson’s Successive Post-Conviction
24

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 25 of 39. PagelD#:1798

Petition and Motion to Obtain New Evidence in August 2018. (Doc. No. 28-1, Exh 26.) Jefferson
did not appeal the trial court’s ruling and cannot do so now, as Ohio does not permit delayed appeals
in post-conviction proceedings. See e.g., Wright, 643 F. Supp.2d at 987; Carley, 563 F. Supp.2d at
775; Scott, 2014 WL 29514 at * 6. Moreover, Jefferson has not argued or demonstrated that there is
either cause or prejudice to excuse the default of these claims.
Finally, Jefferson asserts, summarily, that the procedural default of Ground One should be
excused on the basis of actual innocence. (Doc. No. 35 at p. 8.) A petitioner's procedural default
may be excused where a petitioner is actually innocent in order to prevent a “manifest injustice.” See
Coleman, 501 U.S. at 749-50. In order to establish actual innocence, a habeas petitioner must show
“factual innocence, notmere legal insufficiency.” Bousleyv. United States, 523 U.S. 614,623 (1998).
Conclusory statements are not enough—a petitioner must “support his allegations of constitutional
error with new reliable evidence-whether it be exculpatory scientific evidence, trustworthy
eyewitness accounts, or critical physical evidence-that was not presented at trial.” Schlup v. Delo,
513 U.S. 298, 324 (1995). See also Jones v. Bradshaw, 489 F. Supp.2d 786, 807 (N.D. Ohio 2007);
Allen v. Harry, 2012 WL 3711552 at * 7 (6th Cir. Aug. 29, 2012). A petitioner must show that, in
light of the new evidence, it is more likely than not that no reasonable juror would have found him
guilty beyond a reasonable doubt. See Schlup, 513 U.S. at 327. “Without any new evidence of
innocence, even the existence of a concededly meritorious constitutional violation is not in itself
sufficient to establish a miscarriage of justice that would allow a habeas court to reach the merits of
a barred claim.” Id. at 316.
. Here, while Jefferson repeatedly asserts that he is innocent, he fails to support this allegation
with any new, reliable evidence that was not presented at trial. Jefferson argues generally that medical
25

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 26 of 39. PagelD #: 1799

records would prove that “his hands were not usable on or around February 3, 2016” and, therefore,
he could not have shot a gun at Ms. Ervin. (Doc. No. 35 at p. 10.) Jefferson’s conclusory allegation
that his hands were “not usable” on the date of the offense, however, is not sufficient to demonstrate
actual innocence. Moreover, as the state appellate court noted, during his interrogation by Detective
Wise, Jefferson expressly admitted to having shot at a possum earlier in the day on February 3, 2016.
See State v. Jefferson, 2017 WL 3575607 at *4. See also Doc. No. 28-1, Exh. 38 at Tr. 254.
Accordingly, the Court finds that Jefferson has failed to demonstrate that the procedural default of
Ground One should be excused on the basis of actual innocence.
For all the reasons set forth above, the Court finds that Jefferson’s ineffective assistance of
trial counsel claims set forth in Ground One of the Petition are procedurally defaulted. The Court
further finds that Jefferson has not demonstrated cause, prejudice, or actual innocence to excuse the
default of these claims.9 Thus, Jefferson’s Objection is overruled and Ground One is denied.
2.

Ground Two—Sufficiency of the Evidence

In Ground Two, Jefferson contends that there was insufficient evidence to convict him of
felonious assault and having weapons while under disability. (Doc. 22 at pp. 17-18.) He argues that
no actual victim was injured; there was no eye witness testimony to prove that Jefferson actually shot
a gun; there was no forensic testing to prove that Jefferson shot a firearm; and there was no evidence
to prove that Jefferson was the owner or lease holder of the property at 2005 Elliott Ave. where the
firearms were located. {Id.)

9 In his Objection, Jefferson does not argue that the default of Ground One should be excused due to his mental and/or
physical health problems. Thus, the Court deems any such argument waived and does not address it herein.

26

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 27 of 39. PagelD #: 1800

In the R&R, the Magistrate Judge recommended the Court find that (1) the portion of this
Ground relating to Jefferson’s weapons under disability conviction should be dismissed as
procedurally defaulted; and (2) the portion of this Ground relating to Jefferson’s felonious assault
conviction should be denied on the merits. (Doc. No. 34 at pp. 29-35.) Jefferson objects to both
recommendations. (Doc. No. 35 at pp. 8-10.)
a.

Weapons Under Disability Conviction

The Magistrate Judge concluded that Jefferson’s weapons under disability sufficiency of the
evidence claim is procedurally defaulted because Jefferson did not raise this particular argument in
his direct appeal to the state appellate court. (Doc. No. 34 at p. 29.) The Magistrate Judge further
found that Jefferson failed to demonstrate either cause or prejudice to excuse the default. (Id. at pp.
29-30.)
Jefferson does not address the issue of procedural default, cause or prejudice in his Objection.
(Doc No. 35.) Rather, he argues that there was no evidence to prove that he committed the offense
of weapons under disability because “Toledo police officers and detective testified at trial that
Jefferson had no weapon in his possession and there was no physical proof Jefferson fired a weapon,
such as ballistics, no gun shot residue test, no fingerprints and no projectile found, no evidence to
support Jefferson violated this law by committing this offense.” (Id. at p. 9.)
Because Jefferson did not object to the Magistrate Judge’s determination that this claim is
procedurally defaulted, the Court deems such argument waived. The Court also deems waived any
argument that cause or prejudice exists to excuse default of this claim. Accordingly, and upon its
own review, the Court agrees with the Magistrate Judge and adopts her recommendation that
Jefferson’s sufficiency of the evidence claim relating to his weapons under disability conviction is
27

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 28 of 39. PagelD #: 1801

procedurally defaulted and, further, that Jefferson has failed to demonstrate either cause or prejudice
to excuse the default.
Liberally construed, Jefferson’s Objection does appear to assert that the default of this claim
should be excused on the basis of actual innocence. The Court rejects this argument. While
Jefferson’s Objection could be read to assert various legal theories as to why he should not have been
convicted of this offense, he fails to come forward with any new, reliable evidence that he is factually
innocent of the offense of weapons under a disability. Accordingly, the Court rejects Jefferson’s
Objection with respect to this claim.
Accordingly, the Court finds that Jefferson’s sufficiency of the evidence claim relating to his
weapons under disability conviction, as set forth in Ground Two of the Petition, is procedurally
defaulted. The Court further finds that Jefferson has not demonstrated cause, prejudice, or actual
innocence to excuse the default of this claim. Thus, Jefferson’s Objection is overruled and this
portion of Ground Two is denied.
b.

Felonious Assault Conviction

In the R&R, the Magistrate recommends that the Court deny on the merits Jefferson’s
sufficiency of the evidence claim with respect to his felonious assault conviction. (Doc. No. 34 at
pp. 31 -34.) The Magistrate Judge concluded that, although there was no direct evidence that Jefferson
shot a gun at Ms. Ervin, the jury heard a wealth of circumstantial evidence that Jefferson committed
the offense, including Ms. Ervin’s testimony and police officers’ testimony regarding the recovery of
several firearms inside the residence and the recovery of a shell casing lying on top of the grass next
to the front porch. (Id.) In light of this testimony and evidence, the Magistrate Judge concluded that

28

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 29 of 39. PagelD #: 1802

the state appellate court reasonably concluded that the circumstantial evidence was sufficient to
establish that Jefferson committed the offense of felonious assault. (Id.)
In his Objection, Jefferson insists that there is no evidence to support his conviction for this
offense. (Doc. No. 35 at pp. 9-10.) He maintains that Ms. Ervin’s testimony is not credible and notes
that she was never harmed. (Id.) Jefferson also claims that he could not have committed the offense
because his hands were “not usable” and, therefore, he could not have shot a gun on the night in
question. (Id.)
Jefferson raised this claim in his direct appeal to the state appellate court. (Doc. No. 28-1,
Exh. 9.) That court considered it on the merits and rejected it as follows:
{1J17} Under R.C. 2903.11(A)(2), a defendant may be convicted of felonious assault
for causing or attempting to cause physical harm to another by means of a deadly
weapon. “Firing a gun in a person's direction is sufficient evidence of felonious
assault.” State v. Jordan, 8th Dist. Cuyahoga No. 73364,1998 WL 827588, *12,1998
Ohio App. LEXIS 5571, *31 (Nov. 25,1998). According to appellant, the state failed
to introduce sufficient evidence to establish that he fired a shot at Ervin as she was
fleeing from the residence.
(1118} In denying appellant's Crim.R. 29 motion, the trial court characterized this case
as a “close call.” We agree. While the state did not introduce direct evidence as to
whether appellant pointed his firearm at Ervin and pulled the trigger, we find that the
circumstantial evidence was sufficient to establish that he did so.
{*) 19} During her testimony at trial, Ervin testified that she clearly heard a gunshot
ring out from the area around the front porch as she was running out of the residence.
Prior to this point, appellant was enraged at the thought of Ervin terminating the
marriage, and had already violently reacted by biting Ervin and attempting to prevent
her from leaving the residence. During the incident, Ervin observed a handgun sitting
on a nearby table. After arriving at her vehicle following the gunshot, she looked back
and saw appellant reentering the residence from the front porch.
(U 20} During the ensuing investigation, authorities recovered several firearms inside
the residence. One of these firearms contained ammunition that matched a .25 caliber
spent shell casing that was discovered lying on top of the grass next to the front porch.
Appellant attempted to explain the spent shell casing by admitting to having shot at a
29

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 30 of 39. PagelD#:1803

possum earlier in the day. However, according to detective Wise, appellant's story
changed several times during the interrogation.
(Tl 21} Construing the foregoing evidence in a light most favorable to the prosecution,
we find that a rational trier of fact could have found, beyond a reasonable doubt, that
appellant attempted to cause Ervin serious physical harm by firing a shot in her
direction as she attempted to escape the residence, Thus, the trial court properly
denied appellant's Crim.R. 29 motion, and appellant's first assignment of error is not
well-taken.
State v. Jefferson, 2017 WL 3575607 at *4.
A petitioner who claims that the evidence at trial was insufficient for a conviction must
demonstrate that, “after viewing the evidence in the light most favorable to the prosecution, [no]
rational trier of fact could have found the essential elements of the crime beyond a reasonable doubt.”
Jackson v. Virginia, 443 U.S. 307, 319 (1979). See also Scott v. Mitchell, 209 F.3d 854, 885 (6th Cir.
2000). The role of the reviewing court in considering such a claim is limited:
A reviewing court does not reweigh the evidence or redetermine the credibility of the
witnesses whose demeanor has been observed by the trial court. It is the province of
the factfinder to weigh the probative value of the evidence and resolve any conflicts
in testimony. An assessment of the credibility of witnesses is generally beyond the
scope of federal habeas review of sufficiency of evidence claims. The mere existence
of sufficient evidence to convict therefore defeats a petitioner's claim.
Matthews v. Abramajtys, 319 F.3d 780,788-89 (6th Cir. 2003) (internal citations omitted). Moreover,
it is well established that ‘“attacks on witness credibility are simply challenges to the quality of the
government's evidence and not to the sufficiency of the evidence.’" Martin v. Mitchell, 280 F.3d 594,
618 (6th Cir. 2002) (quoting United States v. Adamo, 742 F.2d 927, 935 (6th Cir. 1984) abrogated on
other grounds by Buford v. United States, 532 U.S. 59 (2001)).
Consistent with these principles, the Supreme Court has emphasized that habeas courts must
review sufficiency of the evidence claims with “double deference:”

30

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 31 of 39. PagelD #: 1804

We have made clear that Jackson claims face a high bar in federal habeas proceedings
because they are subject to two layers of judicial deference. First, on direct appeal, ‘it
is the responsibility of the jury—not the court—to decide what conclusions should be
drawn from evidence admitted at trial. A reviewing court may set aside the jury's
verdict on the ground of insufficient evidence only if no rational trier of fact could
-, 132 S.Ct. 2, 4, 181
have agreed with the jury.’ Cavazos v. Smith, 565 U.S. 1,
L.Ed.2d 311 (2011) (per curiam). And second, on habeas review, ‘a federal court may
not overturn a state court decision rejecting a sufficiency of the evidence challenge
simply because the federal court disagrees with the state court. The federal court
instead may do so only if the state court decision was ‘objectively unreasonable.’”
-, 130 S.Ct. 1855, 1862, 176 L.Ed.2d
Ibid, (quoting Renico v. Lett, 559 U.S. 766,
678 (2010)).
Coleman v. Johnson, 566 U.S. 650, 651 (2012). Under this standard, “we cannot rely simply upon
our own personal conceptions of what evidentiary showings would be sufficient to convince us of the
petitioner's guilt,” nor can “[w]e ... inquire whether any rational trier of fact would conclude that
petitioner ... is guilty of the offenses with which he is charged.” Brown v. Konteh, 567 F.3d 191, 205
(6th Cir. 2009). Rather, a habeas court must confine its review to determining whether the state court
“was unreasonable in its conclusion that a rational trier of fact could find [petitioner] guilty beyond
a reasonable doubt based on the evidence introduced at trial.” Id.
Upon careful review of the trial transcript, the Court finds that Jefferson’s felonious assault
conviction is supported by substantial evidence. The state appellate court accurately summarized the
trial testimony and evidence of record. As noted by the state court, Ms. Ervin testified that, on
February 3, 2016, she went to see Jefferson at a residence located on Elliott Street to tell him that she
was ending their marriage. (Doc. No. 28-1, Exh. 38 at Tr. 176-178.) While she was with Jefferson,
she saw a gun on the table. (Id.) She testified that, during the course of their conversation, Jefferson
became upset, bit her face, screamed and yelled, and attempted to block her from leaving. (Id.) She
was able to run out of the house and then clearly heard a gunshot ring out:

31

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 32 of 39. PagelD#:1805

I ran out that door so fast. I was trembling. I was scared to death. I feared for my
life. As I'm running out the door going down the steps I hear a pow. I'm like, oh, my
God, he done shot at me, am I shot? I run around to my car. I'm shaking. I'm trembling.
I'm falling down to my knees. The key's dropping out of my hand. I'm trying [to] get
in my car to get away and I look through my car window to see where he was at after
he shot at me. He's standing on this porch like it's nothing. He turn around and he
walks back in the house. And I'm waiting to see am I shot.
(Id. atTr. 178.)
The State later introduced testimony from Officer Sahdala that he responded to the scene,
entered the house where Jefferson and Ervin had been talking, and discovered three handguns, all of
which were loaded. (Id. at Tr. 226-228.) Officer Sahdala further testified that one of these guns was
a .25 caliber weapon. (Id.)
Officer Watson then testified that he responded to the scene and searched the grass located
near the front porch for shell casings. (Id. at Tr. 234-236.) Officer Watson testified that he found
one .25 Homady shell casing in the grass, approximately five to six feet from the front porch. (Id. )
Officer Watson testified that the location of the shell casing was consistent with a shot having been
fired from the front porch. (Id.) He further stated that two unspent rounds of Homady .25 ACP
ammo were found in the .25 caliber weapon recovered from the residence. (Id.)
In light of the above, the Court finds that the state appellate court reasonably concluded that
sufficient evidence supported the jury’s findings as to each element of felonious assault. The Court
acknowledges that the evidence presented by the State was entirely circumstantial. The Supreme
Court has held, however, that “[circumstantial evidence ... is intrinsically no different from
testimonial evidence,” and that it is sufficient as long as the jury is convinced beyond a reasonable
doubt. See Holland v. United States, 348 U.S. 121, 138-140 (1955). See also Desert Palace, Inc. v.
Costa, 539 U.S. 90, 100 (2003) (stating that “we have never questioned the sufficiency of
32

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 33 of 39. PagelD#:1806

circumstantial evidence in support of a criminal conviction, even though proof beyond a reasonable
doubt is required”).
Jefferson nonetheless asserts that his conviction is not supported by sufficient evidence
because Ervin’s testimony is unreliable and contradictory. This argument is without merit. It is well
established that the credibility of witness testimony was outside the scope of the state appellate court’s
consideration of Jefferson’s claim of insufficient evidence. See Martin, 280 F.3d at 618. Rather, the
state appellate court properly considered all of the evidence in the light most favorable to the State
and determined there was sufficient evidence to convict him. The standard of review applied by the
state appellate court coincides with the standard for sufficiency of the evidence set forth in Jackson,
supra. Jefferson points to no federal legal precedent requiring the state appellate court, in the context
of a challenge to the sufficiency of the evidence, to engage in the evidence-weighing that he requests.
Accordingly, Jefferson’s Objection is without merit and overruled. Jefferson’s sufficiency of
the evidence claim relating to his felonious assault conviction is denied on the merits.
3.

Ground Three—Prosecutorial Misconduct

In Ground Three, Jefferson argues that his due process rights were violated because the
prosecutor improperly introduced bad character evidence at trial by using Jefferson’s prior drug
conviction from 2007. (Doc. 22 at pp. 19-20.) He asserts that the prosecutors violated his due process
rights and the prosecutors violated the Brady rule when they failed to introduce and withheld from
the jury the Detective Wise interrogation DVD from the night of February 3, 2016. {Id. at pp. 2021.) Jefferson also argues that the prosecutors violated his rights because they did not introduce
evidence sufficient to prove the elements of the offenses for which he was charged. (Id. at pp. 2126.)
33

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 34 of 39. PagelD#:1807

The Magistrate Judge recommends that this ground be dismissed as procedurally defaulted.
(Doc. No. 34 at pp. 35-37.) She determined that Jefferson’s claims would have been apparent from
the face of the record and, therefore, he was required to raise them on direct appeal. (Id.) Jefferson,
however, failed to do so and had not demonstrated that a state court remedy existed through which
he could now exhaust these claims. (Id.) Lastly, the Magistrate Judge found that Jefferson could not
establish either cause or prejudice for the default. (Id.)
In his Objection, Jefferson does not address the issues of procedural default, cause, or
prejudice in his Objection. (Doc No. 35 at pp. 10-11.) Rather, he asserts generally that the State
withheld Brady evidence and improperly vouched for Ms. Ervin during her testimony. (Id.) Jefferson
also states that this claim should not be procedurally barred because he is actually innocent. (Id.)
Because Jefferson did not object to the Magistrate Judge’s determination that this claim is
procedurally defaulted, the Court deems such argument waived. The Court also deems waived any
argument that cause or prejudice exists to excuse default of this claim. Accordingly, and upon its
own review, the Court agrees with the Magistrate Judge and finds that Jefferson’s prosecutorial
misconduct claim is procedurally defaulted and, further, that Jefferson has failed to demonstrate either
cause or prejudice to excuse the default.
Jefferson does argue that the default of this claim should be excused on the basis of actual
innocence. The Court rejects this argument. As noted above, conclusory statements are not enough
to show actual innocence. Rather, a petitioner must “support his allegations of constitutional error
with new reliable evidence-whether it be exculpatory scientific evidence, trustworthy eyewitness
accounts, or critical physical evidence-that was not presented at trial.” Schlup, 513 U.S. at 324.
Jefferson has failed to come forward with any new, reliable evidence that he is factually innocent.
34

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 35 of 39. PagelD #: 1808

Accordingly, the Court finds that Jefferson has not demonstrated that the procedural default of this
claim should be excused on the basis of actual innocence.
The Court therefore finds that Jefferson’s prosecutorial misconduct claim set forth in Ground
Three of the Petition is procedurally defaulted. The Court further finds that Jefferson has not
demonstrated cause, prejudice, or actual innocence to excuse the default of this claim. Thus,
Jefferson’s Objection is overruled and Ground Three is denied.
4.

Ground Four—Search and Seizure

In Ground Four, Jefferson argues that the Toledo police unlawfully seized him and unlawfully
searched the property at 2055 Elliott Ave. (Doc. 22 at pp. 27-2,8.)
The Magistrate Judge recommends that this claim be denied pursuant to Stone v. Powell, 428
U.S. 465, 494 (1976). In that case, the Supreme Court held that, “where the State has provided an
opportunity for full and fair litigation of a Fourth Amendment claim, the Constitution does not require
that a state prisoner be granted federal habeas corpus relief on the grounds that evidence obtained in
an unconstitutional search or seizure was introduced at his trial.” Id. The Sixth Circuit has explained
that a Fourth Amendment claim is barred by Stone unless “the state provided no procedure by which
the prisoner could raise his Fourth Amendment claim, or the prisoner was foreclosed from using that
procedure....” Good v. Berghuis, 729 F.3d 636, 639 (6th Cir. 2013) (quoting Willett v. Lockhart, 37
F.3d 1265, 1273 (8th Cir. 1994) (en banc)). See also Brown v. Nagy, 2019 WL 7761722 at * 6 (6th
Cir. Dec. 16, 2019).
Here, the Magistrate Judge found that the State of Ohio has a mechanism in place for resolving
Fourth Amendment claims, including the opportunity to file a motion to suppress. (Doc. No. 34 at p.
38.) The Magistrate Judge further found that “there is no indication that Jefferson’s presentation of
35

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 36 of 39. PagelD#:1809

his Fourth Amendment claim was frustrated by a failure of Ohio’s procedural mechanism,”
particularly given that he was represented by counsel and had the opportunity to file pretrial motions.
{Id.) In this regard, the Magistrate Judge noted that Jefferson did, in fact, file a motion to suppress
statements made during his interrogation by Detective Wise, which was decided by the trial court
after a hearing. (Id.) The Magistrate Judge stated that Jefferson did not raise the Fourth Amendment
claims raised in the instant habeas Petition, nor did he assert them on direct appeal. (Id.)
In his Objection, Jefferson does not address the applicability of Stone v. Powell, supra, nor
does he otherwise assert that his ability to present his Fourth Amendment claims was frustrated as a
result of the State’s process for presentation of such claims. In addition, Jefferson does not argue that
he, in particular, was foreclosed from raising the instant Fourth Amendment issues in the state trial
court.
Accordingly, the Court agrees with the Magistrate Judge that Jefferson’s Fourth Amendment
habeas claim is barred by Stone v. Powell, supra. Jefferson’s Objection is overruled and Ground Four
of the instant Petition is denied.
Therefore, and for all the reasons set forth above, Jefferson’s Objections are overruled. The
Magistrate Judge’s R&R (Doc. No. 34) is ADOPTED as set forth herein, and the Petition is
DISMISSED. Further, the Court certifies, pursuant to 28 U.S.C. § 1915(a)(3), that an appeal from
this decision could not be taken in good faith, and that there is no basis upon which to issue a
certificate of appealability. 28 U.S.C. § 2253(c); Fed. R. App. P. 22(b).
IV.

Motion for Emergency Release (Doc. No. 36)
On April 20,2020, Jefferson filed a pro se Motion for Emergency Release due to the COVID-

19 pandemic. (Doc. No. 36.) Therein, Jefferson states that he is at high risk due to his epilepsy and
36

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 37 of 39. PagelD #: 1810

bronchitis.10 (Id.) He indicates that he fears for his life and asserts that forcing him to stay in custody
under the present circumstances constitutes cruel and unusual punishment in violation of the Eighth
Amendment. (Id.) Jefferson also states that, on April 10, 2020, he filed a “Motion for Judicial
Release COVID-19 pro se package” in the state trial court.11 (Id.)
Respondent filed a Brief in Opposition on April 22, 2020.

(Doc. No. 37.)

Therein,

Respondent argues that Jefferson’s Motion should be denied because it essentially challenges the
conditions of his confinement, which is not a cognizable claim in federal habeas proceedings under
§ 2254. (Id) Respondent further asserts that Jefferson has not demonstrated that he is entitled to
release on bond because he has failed to establish likelihood of success on the merits and/or the
presence of exigent circumstances. (Id.) Finally, Respondent argues that Jefferson’s Motion should
be denied because he has not shown that prison authorities are unable or unwilling to address the
issue of coronavirus within prisons. (Id.)
As set forth at length above, the Court has exhaustively reviewed Jefferson’s habeas Petition
and dismissed each of his four grounds for relief. The Court has also certified, pursuant to 28 U.S.C.
§ 1915(a)(3), that an appeal from this decision could not be,taken in good faith, and that there is no
basis upon which to issue a certificate of appealability. Thus, having completed its review and
dismissed the Petition, the Court is doubtful that it has the jurisdiction to grant Jefferson’s Motion at
this time.

10 Attached to Jefferson’s Motion is a purported letter dated April 9,2019 from the Warden of North Central Correctional
(where Jefferson is currently housed) indicating that an inmate had tested positive for COVID-19. (Doc. No. 36-1.)
11 According to the state court docket, that motion was docketed by the trial court on April 21, 2020 and remains pending
as of the date of this decision.

37

Case: 3:18-cv-00779-PAB Doc#: 38 Filed: 04/27/20 38 of 39. PagelD #: 1811

Even assuming it retained such authority, the Court finds that Jefferson has not demonstrated
that he is entitled to release. Construing Jefferson’s Motion liberally, it appears that Jefferson is
requesting that he be released on bond. “Release of a state prisoner pending consideration of the
habeas corpus petition is reserved for the extraordinary case.” Greenup v. Snyder, 57 Fed. Appx.
620, 621 (6th Cir. 2003) (citing Lee v. Jabe, 989 F.2d 869, 871 (6th Cir. 1993) (“Since a habeas
petitioner is appealing a presumptively valid state conviction, both principles of comity and common
sense dictate that it will indeed be the very unusual case where a habeas petitioner is admitted to bail
prior to a decision on the merits in the habeas case.”)). To receive bond pending a decision on the
merits of a habeas corpus petition, a petitioner must show (1) a substantial claim of law based on the
facts, and (2) exceptional circumstances justifying special treatment in the interest of justice. See
Lee, 989 F.2d at 871 (quoting Dotson v. Clark, 900 F.2d 77, 79 (6th Cir. 1990)). See also Aronson v.
May, 85 S.Ct. 3, 5 (1964); Nash v. Eberlin, 437 F.3d 519, 526, n. 10 (6th Cir.2006). “There will be
few occasions where a habeas petitioner meets this standard.” Dipofi v. Eichenlaub, 2008 WL
2745143 at * 4 (E.D. Mich. July 14, 2008). See also Dotson, 900 F.2d at 79; Smith v. Bergh, 2018
WL 1399321 at * 3 (E.D. Mich. March 19, 2018).
For the reasons explained in the Court’s analysis of Jefferson’s Petition, the Court finds that
Jefferson has not shown a substantial claim of law based on the facts. Moreover, although the Court
is very aware of the serious threat to public health posed by COVID-19, Jefferson has not
demonstrated that his particular circumstances constitute “exceptional circumstances justifying
special treatment in the interests of justice.” Although Jefferson emphasizes that he suffers from
bronchitis and epilepsy, the Court finds that these conditions are not so unusual such that they would
warrant the extraordinary measure of granting release.
38

Case: 3:18-cv-00779-PAB Doc #: 38 Filed: 04/27/20 39 of 39. PagelD #: 1812

Accordingly, and for all the reasons set forth above, Jefferson’s Motion for Emergency
Release (Doc. No. 36) is DENIED.12
V.

Conclusion
For the foregoing reasons, Jefferson’s Objections are overruled. The Magistrate Judge’s

Report & Recommendation (Doc. No. 34) is ADOPTED as set forth herein, and the Petition is
DISMISSED. In addition, Jefferson’s Motion for Emergency Release (Doc. No. 36) is DENIED.
Further, the Court certifies, pursuant to 28 U.S.C. § 1915(a)(3), that an appeal from this
decision could not be taken in good faith, and that there is no basis upon which to issue a certificate
of appealability. 28 U.S.C. § 2253(c); Fed. R. App. P. 22(b).
IT IS SO ORDERED.

s/Pamela A. Barker
PAMELA A. BARKER
U. S. DISTRICT JUDGE

Date: April 27, 2020

12 To the extent Jefferson’s Motion could be construed as a request to amend his Petition to raise a claim of cruel and
unusual punishment under the Eighth Amendment, this request is denied. The instant proceedings are far too advanced
to allow amendment. Moreover, the Court agrees with Respondent that Petitioner’s motion challenges, in essence, the
conditions of his confinement. Such claims are not cognizable in habeas cases. See Hodges v. Bell, 170 Fed. Appx 389,
393 (6th Cir. 2006) (“a habeas corpus proceeding does not extend to the conditions of confinement”). See also Nelson v.
Campbell, 541 U.S. 637, 643 (2004) (finding that, generally, a federal court’s authority in a habeas proceeding under §
2254 extends only to determining the legality of a petitioner’s state-court conviction and sentence, and not to addressing
the conditions of his confinement.)

39

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 lot40. PagelD#:1702

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

TANELLE M. JEFFERSON,
Petitioner,
v.

STATE OF OHIO,

Respondent.

CASE NO. 3:18-cv-00779

)
)
)
)
)
)
)
)
)
)
)

JUDGE BENITA Y. PEARSON
MAGISTRATE JUDGE
KATHLEEN B. BURKE

REPORT AND RECOMMENDATION

Petitioner Tanelle M. Jefferson (“Petitioner” or “Jefferson”), proceeding pro se, filed this
habeas corpus action pursuant to 28 U.S.C. § 2254. His petition is deemed filed on March 18,
2018, the date he placed it in the prison mailing system.1 Doc. 1, p. 15. Thereafter, Jefferson
sought and was granted leave to file an amended petition. Docs. 6 & 18. Jefferson filed an
amended petition on November 26, 2018 (hereinafter referred to as “Petition”). Doc. 22.
Jefferson challenges the constitutionality of his convictions and sentences in State of Ohio v.
Jefferson, Case No. G4801-CR-0201601280 (Lucas County). Docs. 1 & 22.
In July 2016, following a jury trial, Jefferson was found guilty of one count of felonious
assault with a firearm specification and one count of having weapons while under disability.
Doc. 28-1, pp. 20, 66-67. The trial court sentenced Jefferson to a total of 12.5 years in prison.
Doc. 28-1, pp. 20, 66-67.

i ‘i

Under the mailbox rule, a habeas petition is deemed filed when the prisoner gives the petition to prison officials
for filing in the federal courts.” Cook v. Stegall, 295 F.3d 517, 521 (6th Cir. 2002) (citing Houston v. Lack, 487 U.S.
266,273 (1988)). Jefferson’s petition was docketed in this Court on April 6, 2018. Doc. 1.

1

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 2 of 40. PagelD#:1703

This matter has been referred to the undersigned Magistrate Judge pursuant to Local Rule
72.2.
For the reasons set forth below, the undersigned recommends that the Court DISMISS
and/or DENY Jefferson’s Petition.
I.

Pending Motions

Also pending before the Court are the following motions filed by Petitioner: (1) Motion
for Appointment of Counsel (Doc. 16); (2) Motion for Discovery (Doc. 17); (3) Motion to
Expand the Records (Doc. 24); (4) Motion to Subpoena Toledo Police Report (Doc. 25); and (5)
Motion to Expand Records (Doc. 31). Petitioner’s pending motions are resolved as follows:2
A.

Petitioner’s Motion for Appointment of Counsel (Doc. 16)

It is well established that a habeas corpus proceeding is civil in nature and the Sixth
Amendment right to counsel afforded for criminal proceedings does not apply. See, e.g., Cobas
v. Burgess, 306 F.3d 441, 444 (6th Cir. 2002) (citing McCleskey v. Zant, 499 U.S. 467, 495, 111
S.Ct. 1454, 113 L.Ed.2d 517 (1991)); Douglas v. Maxwell, 357 F.2d 320, 321 (6th Cir. 1966);
(there is no Sixth Amendment right to appointed counsel in habeas cases since a habeas corpus
proceeding is not a criminal proceeding). The Rules Governing § 2254 Cases (“Habeas Rules”)
provide situations when a federal habeas court must appoint counsel but do not otherwise set a
standard for when the court may appoint counsel. See, e.g., Rule 8 of the Rules Governing
Section 2254 Cases, 28 U.S.C. foil. § 2254 (counsel must be appointed if evidentiary hearing is
warranted).
When not required by rule, the appointment of counsel for federal habeas petitioners
who, like Petitioner, have filed pursuant to § 2254, is governed by the Criminal Justice Act, 18

2 Some of Petitioner’s motions pertain to similar matters and therefore are addressed together.

2

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 3 of 40. PagelD#:1704

U.S.C. § 3006A. See 28 U.S.C. § 2254(h). Pursuant to 18 U.S.C. § 3006A, the decision to
appoint counsel for a federal habeas petitioner is within the court’s discretion, and representation
may be provided when “the interests of justice so require.” 18 U.S.C. § 3006A(a)(2); Mira v.
Marshall, 806 F.2d 636, 638 (6th Cir. 1986) (“The decision to appoint counsel for a federal
habeas petitioner is within the discretion of the court and is required only where the interests of
justice or due process so require.”). “Appointment of counsel is only justified in ‘exceptional
circumstances,’ and is unnecessary where claims are ‘relatively straightforward’ and arise under
settled law.” U.S. v. Pullen, 2012 WL 116035, * 1 (N.D. Ohio Jan. 13, 2012) (denying motion
for appointment of counsel in habeas proceeding filed pursuant to 28 U.S.C. § 2255) (citing
Gilbert v. Barnhart, 2009 WL 4018271, *1 (E.D. Mich. Nov. 19, 2009) (§ 2254 proceeding) and
Bookstore v. Addison, 2002 WL 31538688, at *2 (10th Cir. Nov. 6, 2002) (§ 2254 proceeding)).
Petitioner contends that appointment of counsel is warranted because he “lack(s) the
professional skills and knowledge of law and legal procedure.” Doc. 16, p. 1. However, he has
filed multiple motions on his own behalf and sought and received leave to file an amended
petition. Petitioner has failed to show that exceptional circumstances exist warranting the
appointment of counsel. Accordingly, Jefferson’s motion for appointment of counsel (Doc. 16)
is DENIED.
B.

Petitioner’s Motion for Discovery (Doc. 17) and Petitioner’s Motion to
Subpoena Toledo Police Report (Doc. 25)

In Doc. 17, Jefferson generally requests that he be provided with “all the evidence in this
case.” Doc. 17, p. 1. In his reply brief, Jefferson states he never received a DVD of an
interrogation conducted of him by Detective Sherri Wise. Doc. 23, p. 1.
In Doc. 25, Jefferson seeks a Toledo Police Report from on or about December 2, 2015,
asserting that he called the Toledo Police non-emergency line asking for help because Jeanette
3

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 4 of 40. PagelD#:1705

Ervin3 was attempting to attack him with objects and he was in an air-cast and unable to get
away from her. Doc. 25, p. 2. Jefferson further states that the report shows:
Jeanette Ervin was the violent person and shows Jefferson was the victim who was
physically impaired and needed help from her. On February 3,2016, Jefferson was
injured more than he was on December 2, 2015, because he had two badly injured
hands and this broken leg as well. These injuries made it impossible for Jefferson
to fight anyone or defend his self from anyone with his physical impairments plus
his Epilepsy.
Doc. 25, p. 2.
In state post-judgment proceedings, Jefferson sought this same record but his request was
denied. Doc. 25, p. 1, Doc. 28-1, pp. 151, 178.
Under Rule 6 of the Rules Governing § 2254 Cases, 28 U.S.C.A. foil. § 2254, “[a] judge
may, for good cause, authorize a party to conduct discovery under the Federal Rules of Civil
Procedure and may limit the extent of discovery.” (emphasis supplied). However, Jefferson has
not shown good cause to authorize discovery in this habeas case. Additionally, “review under §
2254(d)(1) is limited to the record that was before the state court that adjudicated the claim on
the merits.” Moore v. Mitchell, 708 F.3d 76Q, 781 (6th Cir. 2013) (quoting Cullen v. Pinholster,
— U.S. —, 131 S.Ct. 1388, 1398 (2011)). A federal habeas petition is not intended to allow for
a “retrial” of a state proceeding. Moore, 708 F.3d at 781.
For the reasons discussed herein, Jefferson’s motions for discovery (Docs. 17 & 25) are
DENIED.
C.

Petitioner’s Motion to Expand the Records (Docs. 24 & 31)
1.

Doc. 24

3 Jeanette Ervin, Jefferson’s wife, was the victim in the criminal case underlying this federal habeas proceeding. Doc.
28-1, pp. 67-71, 4-11.

4

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 5 of 40. PagelD#:1706

In Doc. 24, Jefferson seeks to have included in the record before this Court state court
records or partial or incomplete copies of state court records. Doc. 24-1 (portion of court
docket); Doc. 24-2 (October 31, 2018, trial court order denying pro se motion for summary
judgment and motion to subpoena witnesses); Doc. 24-3 (portions of State’s opposition to
Defendant’s (1) Motion for Summary Judgment; and (2) Motion to Subpoena Witnesses).
When Respondent filed its Return of Writ on January 11, 2019, Respondent filed the state
court record as an exhibit thereto. Doc. 28-1. Included in that record is a copy of the October
31, 2018, trial court order denying Jefferson’s motion for summary judgment and motion to
subpoena witnesses (Doc. 28-1, p. 266) and a complete copy of the State’s opposition to
Defendant’s (1) Motion for Summary Judgment; and (2) Motion to Subpoena Witnesses (Doc.
28-1, pp. 263-265). Additionally, Respondent has filed copies of various state court dockets
pertaining to Jefferson’s state court proceedings. Doc. 28-1, pp. 268-282, 283-288, 289, 290.
Considering the foregoing, Jefferson’s Motion to Expand the Records (Doc. 24) is moot
and is DENIED.
2.

Doc. 31

In Doc. 31, Jefferson seeks to expand the record to include “evidence that is within Case
No. CR16-1280 records that court appointed Daniel Arnold recently sent Jefferson on or around
March 21, 2019.” Doc. 31, p. 1. The records include a letter from Attorney Arnold to Jefferson,
records from the Toledo Municipal Court, an incident detail report, a record of a property search,
and purported attorney notes. Doc. 31, Doc. 31-1, pp. 1-17. Jefferson asserts that these various
records will prove certain matters. Doc. 31. For example, he asserts that the records prove that
Detective Sherri Wise was aware of certain matters; that he and his wife Jeanette Ervin did not
really know each other; and that there was no evidence introduced to prove Jeanette Ervin’s

5

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 6 of 40. PagelD#:1707

claim that that Jefferson was intoxicated on February 3, 2016. Doc. 31, pp. 1-2. In essence,
Jefferson is arguing that the records could be used as impeachment evidence.
Expansion of the record in a habeas proceeding is discretionary. See Rule 7 of the Rules
Governing § 2254 Cases, 28 U.S.C.A. foil. § 2254 (“... the judge may direct the parties to
expand the record ...) (emphasis supplied). There is no indication that the various records that
Jefferson seeks to have included in the record before this Court were presented to the state court
or that Jefferson sought to have the records considered by the state court. And, as noted above,
“review under § 2254(d)(1) is limited to the record that was before the state court that
adjudicated the claim on the merits.” Moore, 708 F.3d at 781. Further, Jefferson has failed to
demonstrate that the records he seeks to introduce could establish a basis upon which federal
habeas relief is warranted. For the foregoing reasons, Jefferson’s Motion to Expand the Records
(Doc. 31) is DENIED.
II.

Factual Background

In a habeas corpus proceeding instituted by a person in custody pursuant to the judgment
of a state court, the state court’s factual determinations are presumed correct. 28 U.S.C. §
2254(e)(1). The petitioner has the burden of rebutting that presumption by clear and convincing
evidence. Id.\ see also Railey v. Webb, 540 F. 3d 393, 397 (6th Cir. 2008) cert, denied, 129 S.
Ct. 2878 (2009). The Sixth District Ohio Court of Appeals summarized the facts underlying
Jefferson’s convictions as follows:
{*[f 2} On February 12, 2016, appellant was indicted on one count of felonious
assault in violation of R.C. 2903.11(A)(2) and (D), a felony of the second degree,
and one count of having weapons while under disability in violation of R.C.
2923.13(A)(3), a felony of the third degree. Based upon the allegation that appellant
committed the felonious assault while in possession of a firearm, a firearm
specification was attached to the felonious assault under R.C. 2941.145.

6

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 7 of 40. PagelD#:1708

{] 3} Thereafter, appellant entered pleas of not guilty to the aforementioned
charges, and the matter proceeded to discovery. Following pretrial proceedings and
motion practice, a two-day jury trial commenced on July 18, 2016.
HI 4} At trial, the state first presented the testimony of appellant’s wife, Jeanette
Ervin. Ervin and appellant were married in December 2015. According to Ervin,
the marriage “started out fun,” but eventually became abusive. Specifically, Ervin
stated: “Well, after being together for a while, I noticed some changes in
[appellant]. He would always grab on my clothes, rough me up, and he had that
temper about [himself] and I would have to fight him off.” Due to the abuse that
was existent within their marriage, appellant and Ervin resided separately.
(TI 5} Three months into the marriage, Ervin decided that it was time to end her
relationship with appellant. After Ervin informed appellant of her decision to end
the marriage, appellant asked Ervin to come to his house so that they could talk
about possibly staying together. Ervin noticed that appellant was drinking from a
bottle of Hennessy brandy when she arrived at his house. During the discussion,
Ervin also noticed a handgun sitting on a nearby table.
{^16} When Ervin informed appellant that she was leaving him, he told her that she
was not going anywhere. Ervin then attempted to exit appellant’s home. At trial,
Ervin recounted the ensuing incident as follows:
And as I’m trying to get out the door, the front door, he’s blocking me. So I break
and run through the dining room to the kitchen to go down these steps to get away
from- him. And he put his foot on the back door and said, you’re not going
anywhere.
All of a sudden he [started] screaming and hollering and I’m just begging him,
please. I called him Tee Jay. Tee Jay, let me go. I want to go home, leave me alone.
I don't want to be here with you anymore. Let me go.
He kept saying, no, screaming and hollering, still got ahold of my clothes, to my
clothes. I go back up the steps to the kitchen and the voice that came out of him
was something like I’ve never heard before, like demons. He was just screaming
and hollering at me.
And I knew at that point something bad is getting ready to happen because I already
knew he had that gun.
So I tried to keep quiet and not say anything and I’m—he got me backed up there
against this thing and I’m like Tee Jay, let me go; I want to go home.
So I managed—he kept telling me I wasn’t going to go. I managed to get around
him, go through the dining room. He’s going to grab me again. Still got my clothes.

7

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 8 of 40. PagelD#:1709

By that time this weapon, this gun, hits the floor. I say, it’s time for me to break
and run for my life.
I ran out that door so fast. I was trembling. I was scared to death. I feared for my
life.
As I’m running out the door going down the steps I hear a pow. I’m like, oh, my
God, he done shot at me, am I shot? I run around to my car. I’m shaking. I’m
trembling. I'm falling down to my knees. The [key is] dropping out of my hand. I’m
trying to get in my car to get away and I look through my car window to see where
he was at after he shot at me. He’s standing on this porch like it’s nothing. He
[turns] around and he walks back in the house.
7} Upon further questioning, Ervin acknowledged that she did not actually
witness appellant shoot at her because she was running away from him at the time.
Nonetheless, appellant was insistent that she heard appellant fire a shot from where
he was standing on the front porch of his home. When asked how she could be
certain that appellant fired a shot at her, Ervin stated: “Because I heard the pow and
I knew he had a gun. And he was angry.”
{^f 8} As its next witness, the state called Brian Heath. Heath and his partner, Scott
Bruhn (whom the state called as its third witness), were the first officers to arrive
on the scene after Ervin called 911. Initially, Heath set up a perimeter around
appellant’s house. Meanwhile, Bruhn questioned Ervin, who informed him that
appellant had just shot at her and was still inside the home. Eventually, Heath and
Bruhn took appellant into custody. Upon further questioning, Ervin explained to
Bruhn that appellant had shot at her from the front porch of the home.
{^j 9} After learning that appellant fired a shot at Ervin from his front porch, Bruhn
alerted the detective bureau and began searching the area around the porch for a
shell casing. Bruhn was accompanied by another officer, Michael Watson.
Ultimately, Watson discovered one Homady .25 ACP caliber spent shell casing on
top of the grass five to six feet from the edge of the front porch. According to
Watson, the location of the shell casing was consistent with Ervin’s contention that
appellant fired at her while standing on the front porch.
(U 10} For its fourth witness, the state called Nathaniel Sahdala. Sahdala also
responded to the scene after Ervin called 911. After appellant was arrested and
taken into custody, Sahdala entered appellant's home. Upon entry, Sahdala entered
the dining room, where he observed a portion of carpet that was folded over with
the rear half of a handgun visible underneath the carpet. Sahdala then rolled back
the rest of the carpet that was folded and discovered two additional firearms, both
of which were loaded. Thereafter, Sahdala retrieved the firearms and unloaded the
ammunition. One of the firearms was a .25 caliber handgun, which contained
Hornady .25 ACP ammunition matching the shell casing that Watson discovered
next to the front porch.
8

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 9 of 40. PagelD #: 1710

{1 11} As its final witness, the state called detective Sherri Wise. Wise arrived at
appellant’s residence and was involved in the removal of the firearms from the
dining room. Wise eventually interviewed appellant at the police station, where
appellant admitted to having fired a weapon earlier in the day. Initially* appellant
insisted that he shot a possum. However, the type of animal that was allegedly shot
changed several times during the course of Wise’s interrogation of appellant.
Further, appellant claimed that he shot the animal with a Winchester rifle, which
was not located at the residence. Ultimately, the three handguns that were removed
from the residence were tested and found to be operable. Notably, Wise
corroborated the previous testimony that the .25 caliber handgun that was removed
contained ammunition matching the spent shell casing found on the lawn adjacent
to the front porch.
State v. Jefferson, 2017-Ohio-7272,

2-11, 2017 WL 3575607, ** 1-3 (Ohio Ct. App. Aug. 18,

2017); see also Doc. 28-1, pp. 67-71 (alterations in original).
III.

Procedural Background

A. State conviction
On February 12, 2016, a Lucas County Grand Jury indicted Jefferson on (1) one
count of felonious assault in violation of O.R.C. § 2903.11(A)(2) and (D), a felony of the
second degree, with a firearm specification attached; and (2) one count of having
weapons while under disability in violation of O.R.C. § 2923.13(A)(3), a felony of the
third degree. Doc. 28-1, pp. 4-6, 67. At his arraignment, which was held on February 24,
2016, Jefferson entered a plea of not guilty. Doc. 28-1, p. 7.
Jefferson filed a motion to suppress, arguing statements he made should be suppressed
because he was not advised of his right to remain silent prior to being questioned. Doc. 28-1, pp.
8-9. The State filed an opposition. Doc. 28-1, pp. 10-15. The trial court held a hearing on the
motion to suppress on May 13, 2016. Doc. 28-1, p. 16. At that hearing, at the joint request of
the parties, a DVD of questioning by the police was submitted to the court for its review. Doc.
28-1, pp. 16, 17. Also, at the hearing, Jefferson requested that new counsel be appointed. Id.

9

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 10 of 40. PagelD#:1711

On May 17, 2016, the court denied the motion to suppress and Jefferson’s motion for new
counsel.4 Doc. 28-1, pp. 17-18. The case was set for pre-trial on June 17, 2016. Doc. 28-1, p.
18. On June 17, 2016, counsel for Jefferson withdrew and the pre-trial was rescheduled to June
22, 2016. Doc. 28-1, pp. 271-272. New counsel was present at the June 22, 2016, pre-trial.
Doc. 28-1, p. 272.
Jury trial commenced on July 18, 2016. Doc. 28-1, p. 273. Following a jury trial, on
July 19, 2016, a jury found Jefferson guilty of felonious assault with firearm specification and
having weapons while under disability. Doc. 28-1, pp. 20-21, 273-274. The trial court
proceeded to sentence Jefferson to serve 7 years on count 1 and 30 months on count 2 and an
additional mandatory and consecutive term of 3 years for the firearm specification for a total
prison sentece of 12.5 years. Doc. 28-1, pp. 20-21, 71-72.
B. Direct appeal
On August 18, 2016, Jefferson, through new counsel, appealed to the Sixth District Court
of Appeals. Doc. 28-1, pp. 22-24. In his appellate brief filed on January 28, 2017, (Doc. 28-1,
pp. 25-43), Jefferson raised the following assignments of error:
1.

The trial court erred to the prejudice of appellant by denying his
Rule 29 motion upon completion of the State’s case in chief.

2.

Appellant’s conviction was against the manifest weight of the
evidence produced at trial.

Doc. 28-1, pp. 26, 33-37, 38-39. The State filed its appellate brief on February 7, 2017. Doc.
28-1, pp. 44-65. On August 18, 2017, the Sixth District Court of Appeals affirmed the judgment
of the Lucas County Court of Common Pleas. Doc. 28-1, pp. 66-77.

4 The court, noting Jefferson’s statement that he had previously been shot in the head and his demeanor on the DVD
and in court, ordered Jefferson to undergo a pretrial general psychological examination. Doc. 28-1, pp. 17-18. In his
amended petition, Jefferson states that no psychological examination was conducted. Doc. 22, p. 7.

10

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 11 of 40. PagelD#:1712

On October 2, 2017, Jefferson, pro se, filed a notice of appeal with the Supreme Court of
Ohio. Doc. 28-1, pp. 78-79. In his memorandum in support of jurisdiction (Doc. 28-1, pp. 80104), Jefferson presented the following propositions of law:
1.

Due Process of Law.

2.

Ineffective Assistance of Counsel.

Doc. 28-1, pp. 85-88. On January 31, 2018, the Supreme Court of Ohio declined to accept
jurisdiction of Jefferson’s appeal. Doc. 28-1, p. 105.
C. Application to reopen direct appeal pursuant to Ohio App. R. 26(B)
While his direct appeal was pending, on December 1, 2017, Jefferson filed with the Sixth
District Court of Appeals an application to reopen his direct appeal pursuant to Ohio App. R.
26(B). Doc. 28-1, pp. 106-118. Jefferson argued that his appellate counsel was ineffective for
not raising ineffective assistance of trial counsel and violation of due process of law. Doc. 28-1,
p. 118. On January 11, 2018, the Sixth District Court of Appeals issued a decision and judgment
denying Jefferson’s application for reopening. Doc. 28-1, pp. 119-121. The court of appeals
found that Jefferson’s application was untimely and that Jefferson had not demonstrated good
cause for the untimely filing. Doc. 28-1, p. 120. Jefferson did not appeal from the court of
appeals’ denial of his application to reopen.
D. Petition to vacate or set aside judgment of conviction or sentence
Also, while his direct appeal was pending, on October 4, 2017, Jefferson filed in the trial
court a Petition to Vacate or Set Aside Judgment of Conviction or Sentence. Doc. 28-1, pp. 122127. Jefferson raised the following two claims in his petition:

11

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 12 of 40. PagelD#:1713

1.

Statement of constitutional claim:
Fifth and Fourteen Amendments, U.S. Constitution; Section 16, Article 1,
Ohio Constitution Due Process right was violated my trial and prosecution.
Trial - Transcripts of Proceeding (TP) Vol 1/2.
Short statement of facts supporting the claim:
A prosecutor is required to prove every element of the crime with which a
defendant is charged beyond a reasonable doubt. The Winship “Beyond a
reasonable doubt.” Sullivan v. La, 508 U.S. 275, 278 (1993). Count 1
Felonious assault with a gun specification means a person knowingly
attempt to or did cause harm to a person. There is no physical proof or
evidence that indicated I could harm or actually harm Jeanette Ervin on the
night of February 3rd, 2016 besides her testimony, in which she testified I
roughed her up 2 months before her surgery in May, 2016 (TP Vol 1 /2 p 173)
and Lucas County Correctional’s records have actual fact that was
impossible for me to do because I was in custody. Its unconstitutional for
a prosecutor to make presumptions in criminal prosecution. Estelle v.
McGuire, 502 U.S. 62, 72 (1991) Sandstrom v. Mont., 442 U.S. 510, 514
(1979). State witness, expert of the law, Toledo police officer Mr. Brian
Heath stated (TP Vol. 1/2 p212 line 3-5) “Initially there was nobody outside.
If I can recall correctly, the victim-caller was in her car and come to the
location once we arrived.” This fact that supports my story she wasn’t there
at 2055 Elliott at the time she call 9-1-1 meaning her accusations is false
also and it was proven in court I didn’t reside or have ownership to 2055
Elliott Ave another violation, Miranda v. Arizona, prosecutorial misconduct
significant judicial error and claims of insufficient evidence.

2.

Statement of constitutional claim:
Sixth Amendment Right to Effective assistance of counsel. Right to Expert
Witness Testimony. (U.C. Const., Ohio Const.) Palacios v. Burgue, 589
F.3d 347, 352-53 (5th Cir. 2010).
Short statement of facts supporting the claim:
Mr. Daniel Arnold refused summon Mr. Jefferson’s eye witness (Ward v.
Dretke) LaShanna Haney and he sent 3 of Mr. Jefferson’s witness in court
on the first of trial. Also, Mr. Arnold failed summon Medical and Ballistic
experts.

12

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 13 of 40. PagelD#:1714

Doc. 28-1, pp. 123-126. Jefferson also sought a ballistic expert (Doc. 28-1, p. 125) and filed a
motion for appointment of counsel (Doc. 28-1, pp. 128-130). On November 8, 2017, the State
opposed Jefferson’s petition. Doc. 28-1, pp. 131-141. On November 20, 2017, the trial court
granted Jefferson’s motion for appointment of counsel and appointed counsel to handle
Jefferson’s petition. Doc. 28-1, pp. 142-143. On December 1, 2017, through appointed counsel,
Jefferson filed a reply in support of his petition and request for expert assistance. Doc. 28-1, pp.
144-147. On December 20, 2017, the trial court denied Jefferson’s petition and denied his
request for expert assistance. Doc. 28-1, pp. 148-149. Jefferson did not appeal the trial court’s
December 20, 2017, order.
E. Successive petition to vacate or set aside judgment of conviction or
sentence and other motions
On March 27, 2018, Jefferson, pro se, filed a Motion to Obtain New Evidence, requesting
a December 3, 2015, Toledo Police Department report; a 9-1-1 call from February 3, 2016 from
alleged victim’s GPS or satellite location; and Detective Sherri Wise’s full report and
interrogation video. Doc. 28-1, pp. 151-155. That same day, Jefferson filed an affidavit and
memorandum in support, stating that he had recently learned about the trial court’s denial of his
post-conviction petition because his post-conviction counsel informed him that the court had an
incorrect address for her so she was not notified of the ruling until checking the docket on
February 13, 2018. Doc. 28-1, pp. 156-158.
On April 13, 2018, Jefferson, pro se, filed a Successive Petition to Vacate or Set Aside
Judgement of Conviction or Sentence. Doc. 28-1, pp. 159-166. In his successive petition,
Jefferson asserted the following claims:
1.

Prosecutorial misconduct which violates the (14) Fourteenth Amendment
of the United States Constitution.

13

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 14 of 40. PagelD#:1715

During trial the states prosecutors did not introduce the DVD of Detective
Sherri Wise’s interrogating Petitioner on February 3, 2016. Since State’s
prosecutors withheld this DVD, a major piece of evidence that could have
proven the Petitioner’s actual innocence. See Youngblood v. West Virginia
547 U.S. 867, 870, 126 S.Ct. 2188, 165 L.Ed.2d 269 (2006).
This DVD is already in evidence and is considered “NEW EVIDENCE”
because prosecutors failed to present or introduce this at trial so it can be
found and reviewed by the Court without being attached to this Petition.
See. District Attorney’s Office for Third Judicial Dist. v. Osborne, 557 U.S.
52, 129 S.Ct. 2308, 2319, 174 L.Ed.2d 38 (2009). Prosecutors violated the
Brady rule because all evidence such as finger prints, e-mails, test results,
reports, recordings and notes should have been introduced at trial, U.S. v.
Olsen, 704, F3d 1172, 1181-85 (9th Cir. 2013). This DVD recording will
show the Petitioner was under duress and unable to use an ink pen due to
his hand being injured so in this event, would have demonstrated that the
would be no way how he could use his hands to pick up a gun.
2.

Search and seizure Evidence obtained illegally was introduced at trial to
prove guilt and because of this being presented in a matter which was
unlawful, a reversal is due, Chapman v. California, 386 U.S. 18, 23-24
(1967). 4th Fourth Amendment violations through Mapp v. Ohio, 367 U.S.,
232 U.S. 383. 398, (1914) evidence also violates the 5th Amendment.
Toledo police forced entry in 2055 Elliott Ave in Toledo, Lucas County,
Ohio on February 3rd, 2016, and seized three guns after they seized the
Petitioner outside of the house. Toledo Police told the Petitioner to step out
and go to the Safety Building for questioning but handcuffed and slammed
him on his face and then snatched his brace of his right hand and before
transporting him to the Toledo Police Station without no MIRANDA rights
being read or said or any reason given for arrest. Petitioner’s case was
dismissed in the Toledo Municipal Court on or about February 12,2016 and
should have been redeemed from custody but the State illegally kept him in
custody and then on February 17, 2016, Petitioner was indicted and served
his warrant, while in custody of the Lucas County Correctional Center.
Evidence supporting this claim is not attached because Petitioner needs the
assistance of the Prosecutor’s office to produce the evidence.

Doc. 28-1, pp. 160-161. On July 23, 2018, the State filed a motion for summary
judgment/motion to dismiss Jefferson’s second petition to vacate, motion to obtain new

14

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 15 of 40. PagelD#:1716

evidence, and all remaining motions.5 Doc. 28-1, pp. 167-177. On August 7, 2018, the trial
court denied Jefferson’s second petition for post-conviction relief as untimely and not subject to
exception and the trial court denied Jefferson’s other remaining motions. Doc. 28-1, pp. 178179.
On August 14, 2018, Jefferson filed a motion to supplement the record with copies of his
hospital records, arguing that the records prove that he could not have committed the offenses
because of hand injuries. Doc. 28-1, pp. 180-256. On August 24, 2018, the State filed an
opposition to Jefferson’s motion to supplement the record. Doc. 28-1, pp. 257-258.
On September 7, 2018, Jefferson filed a Motion for Reconsideration wherein he
requested that the trial court reconsider his case as a whole based on the medical records that he
was seeking to have added to the record. Doc. 28-1, pp. 259-260. On October 22, 2018,
Jefferson filed a Motion for Summary Judgment on his motion for reconsideration. Doc. 28-1, p.
261. On October 24, 2018, Jefferson filed a Motion to Subpoena witnesses to be present at a
hearing. Doc. 28-1, p. 262. On October 30, 2018, the State opposed Jefferson’s Motion for
Summary Judgment and Motion to Subpoena witnesses. Doc. 28-1, pp. 263-265.
On October 31, 2018, the trial court ruled that, in his Motion for Summary Judgment,
Jefferson was requesting that the court vacate his conviction. Doc. 28-1, p. 266. Thus, the court
treated the motion as a motion for post-conviction relief and denied it as successive, untimely,
and without exception. Doc. 28-1, pp. 266-267. The trial court also denied the request to
subpoena witnesses, finding that the relief sought pertained to a hearing not provided for in law.
Doc. 28-1, pp. 266-267. Jefferson did not file an appeal with the court of appeals.

5 Although not contained in the record, the briefing filed in connection with Jefferson’s various post-conviction
motions indicates that another motion filed by Jefferson was a motion to subpoena a transcript of a phone interview
involving an individual named Lashanna Haney. Doc. 28-1, pp. 167, 176.

15

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 16 of 40. PagelD#:1717

F. Federal habeas corpus
Jefferson filed his federal habeas petition on March 18, 2018.6 Doc. 1. Thereafter,
Jefferson sought and was granted leave to file an Amended Petition. Docs. 6 & 18. Jefferson
filed an amended petition on November 26, 2018. Doc. 22. Respondent does not seek to strike
the amended petition but Respondent asserts that Jefferson’s amended petition goes beyond the
Court’s authorization for leave to amend, noting that the Court granted Jefferson leave to amend
“in a manner consistent with the proposed amendments identified in his motion to amend.” Doc.
18, p. 2. While Jefferson’s amended petition may go beyond the more specific amendments that
Jefferson proposed in his motion to amend, considering Jefferson’s pro se status and that
Respondent has filed a Return of Writ in response to the amended petition, this Report and
Recommendation addresses the Petition as amended on November 26, 2018 (Doc. 22). In his
amended petition, Jefferson asserts four grounds for relief. Doc. 22, pp. 13-28. Due to the
lengthy argument/supporting facts included in the amended petition with each ground for relief,
undersigned has summarized the grounds for relief as follows:
1.

GROUND ONE: Ineffective assistance of trial counsel in violation
of the Sixth Amendment U.S. Constitutional right.

In Ground One, Jefferson asserts that his trial counsel was constitutionally ineffective,
arguing that his trial counsel: (1) was deficient in advising Jefferson to reject a plea deal and
proceed to trial; (2) did not follow procedures for renewing a Criminal Rule 29(c) motion; (3) did
not raise as an issue the fact that Jefferson told his trial counsel that he realized he knew one of
the jurors; (4) did not properly cross-examine the victim, Jeanette Ervin, and did not make sure

6 See FN 1 above.

16

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 17 of 40. PagelD#:1718

that Ms. Ervin was advised of her Fifth Amendment rights; and (5) overlooked relevant
evidentiary matters, including the need to obtain forensic testing, the need to subpoena an eye
witness and present testimony from certain other witnesses sent home from the trial, the need to
introduce the DVD of Detective Wise’s interrogation, and the need to subpoena medical records.
Doc. 22, pp. 13-17.
2.

GROUND TWO: Insufficient evidence.

In Ground Two, Jefferson contends that there was insufficient evidence to convict him of
felonious assault and having weapons while under disability. Doc. 22, pp. 17-18. He argues that
no actual victim was injured; there was no eye witness testimony to prove Jefferson actually shot
a gun; there was no forensic testing to prove Jefferson shot a firearm; there was no evidence to
prove Jefferson was the owner or lease holder of the property at 2005 Elliott Ave. where the
firearms were located. Doc. 22, pp. 17-18.
3.

GROUND THREE: Prosecutorial misconduct.

In Ground Three, Jefferson argues that his due process rights were violated because the
prosecutor improperly introduced bad character evidence at trial by using Jefferson’s prior drug
conviction from 2007. Doc. 22, pp. 19-20. He asserts that the prosecutors violated his due
process rights and the prosecutors violated the Brady rule when they failed to introduce and
withheld from the jury the Detective Wise interrogation DVD from the night of February 3,
2016. Doc. 22, pp. 20-21. He also argues that the prosecutors violated his rights because they
did not introduce evidence sufficient to prove the elements of the offenses on which he was
charged. Doc. 22, pp. 21-26
4.

GROUND FOUR: Search and seizure.

17

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 18 of 40. PagelD#:1719

In Ground Four, Jefferson argues that the Toledo police unlawfully seized him and
unlawfully searched the property at 2055 Elliott Ave. Doc. 22, pp. 27-28.
III.

Law and Analysis

A. Standard of review under AEDPA
The provisions of the Antiterrorism and Effective Death Penalty Act of 1996, Pub.L. No.
104-132, 110 Stat. 1214 (“AEDPA”), apply to petitions filed after the effective date of the
AEDPA. Stewart v. Erwin, 503 F.3d 488, 493 (6th Cir. 2007). In particular, the controlling
AEDPA provision states:
(d) An application for a writ of habeas corpus on behalf of a person
in custody pursuant to the judgment of a State court shall not be
granted with respect to any claim that was adjudicated on the merits
in State court proceedings unless the adjudication of the claim(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in
the State court proceeding.

28 U.S.C. § 2254(d). “A decision is ‘contrary to’ clearly established federal law when ‘the state
court arrives at a conclusion opposite to that reached by the Supreme Court on a question of law
or decides a case differently than the Supreme Court has on a set of materially indistinguishable
facts.”’ Otte v. Houk, 654 F.3d 594, 599 (6th Cir. 2011) (quoting Williams v. Taylor, 529 U.S.
362, 412-13 (2000)). “A state court’s adjudication only results in an ‘unreasonable application’
of clearly established federal law when ‘the state court identifies the correct governing legal
principle from the Supreme Court’s decisions but unreasonably applies that principle to the facts
of the prisoner’s case.’” Id. at 599-600 (quoting Williams, 529 U.S. at 413). “The ‘unreasonable

18

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 19 of 40. PagelD#:1720

application’ clause requires the state court decision to be more than incorrect or erroneous.”
Lockyerv. Andrade, 538 U.S. 63, 75 (2003). “The state court’s application of clearly established
law must be objectively unreasonable.” Id.
In order to obtain federal habeas corpus relief, a petitioner must establish that the state
court’s decision “was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.” Bobby v.
Dixon, 132 S. Ct. 26, 27 (2011) (quoting Harrington v. Richter, 131 S. Ct. 770, 786-87 (2011).
This bar is “difficult to meet” because “habeas corpus is a ‘guard against extreme malfunctions
in the state criminal justice systems,’ not a substitute for ordinary error correction through
appeal.” Richter, 131 S. Ct. at 786 (quoting Jackson v. Virginia, 443 U.S. 307, 332 n.5 (1979)
(Stevens, J., concurring in judgment)). In short, “[a] state court’s determination that a claim
lacks merit precludes federal habeas relief so long as ‘fairminded jurists could disagree’ on the
correctness of the state court’s decision.” Id. (quoting Yarborough v. Alvarado, 541 U.S. 652,
664(2004)). The petitioner carries the burden of proof. Cullen v. Pinholster, 131 S.Ct. 1388,
1398 (2011).
B. Exhaustion and procedural default
A federal court may not grant a writ of habeas corpus unless the petitioner has exhausted
all available remedies in state court. 28 U.S.C. § 2254(b)(1)(A). A state defendant with federal
constitutional claims must fairly present those claims to the state courts before raising them in a
federal habeas corpus action. 28 U.S.C. § 2254(b), (c); Anderson v. Harless, 459 U.S. 4, 6
(1982) (per curiam); Picard v. Connor, 404 U.S. 270, 275-76 (1971); see also Fulcher v. Motley,
444 F.3d 791, 798 (6th Cir. 2006) (quoting Newton v. Million, 349 F.3d 873, 877 (6th Cir. 2003))
(“[fjederal courts do not have jurisdiction to consider a claim in a habeas petition that was not

19

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 20 of 40. PagelD#:1721

‘fairly presented’ to the state courts”). In order to satisfy the fair presentation requirement, a
habeas petitioner must present both the factual and legal underpinnings of his claims to the state
courts.7 McMeans v. Brigano, 228 F.3d 674, 681 (6th Cir. 2000). This means that the petitioner
must present his claims to the state courts as federal constitutional issues and not merely as
issues arising under state law. See, e.g, Franklin v. Rose, 811 F.2d 322, 324-325 (6th Cir.
1987); Prather v. Rees, 822 F.2d 1418, 1421 (6th Cir. 1987). Further, a constitutional claim for
relief must be presented to the state’s highest court in order to satisfy the fair presentation
requirement. See O'Sullivan v. Boerckel, 526 U.S. 838, 845-48 (1999); Hafley v. Sowders, 902
F.2d 480, 483 (6th Cir. 1990).
Additionally, a petitioner must meet certain procedural requirements in order to have his
claims reviewed in federal court. Smith v. Ohio Dep't ofRehab. & Corr., 463 F.3d 426, 430 (6th
Cir. 2006). “Procedural barriers, such as ... rules concerning procedural default and exhaustion
of remedies, operate to limit access to review on the merits of a constitutional claim.” Daniels v.
United States, 532 U.S. 374, 381 (2001). Although procedural default is sometimes confused
with exhaustion, exhaustion and procedural default are distinct concepts. Williams v. Anderson,
460 F.3d 789, 806 (6th Cir. 2006). Failure to exhaust applies where state remedies are “still
available at the time of the federal petition.” Id. at 806 (quoting Engle v. Isaac, 456 U.S. 107,
125 n.28 (1982)). In contrast, where state court remedies are no longer available, procedural
default rather than exhaustion applies. Williams, 460 F.3d at 806.
Procedural default may occur in two ways. Williams, 460 F.3d at 806.

7 In determining whether a petitioner presented his claim in such a way as to alert the state courts to its federal nature,
a federal habeas court should consider whether the petitioner: (1) relied on federal cases employing constitutional
analysis; (2) relied on state cases employing constitutional analysis; (3) phrased the claim in terms of constitutional
law or in terms sufficiently particular to allege a denial of a specific constitutional right; or (4) alleged facts well within
the mainstream of constitutional law. McMeans, 228 F.3d at 681.
20

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 21 of 40. PagelD#:1722

First, a petitioner procedurally defaults a claim if he fails “to comply with state
procedural rules in presenting his claim to the appropriate state court.” Id. In Maupin v. Smith,
785 F.2d 135, 138 (6th Cir. 1986), the Sixth Circuit provided four prongs of analysis to be used
when determining whether a claim is barred on habeas corpus review due to a petitioner’s failure
to comply with a state procedural rule: (1) whether there is a state procedural rule applicable to
petitioner’s claim and whether petitioner failed to comply with that rule; (2) whether the state
court enforced the procedural rule; (3) whether the state procedural rule is an adequate and
independent state ground on which the state can foreclose review of the federal constitutional
claim and (4) whether the petitioner can demonstrate cause for his failure to follow the rule and
that he was actually prejudiced by the alleged constitutional error. See also Williams, 460 F.3d at
806 (“If, due to the petitioner's failure to comply with the procedural rule, the state court declines
to reach the merits of the issue, and the state procedural rule is an independent and adequate
grounds for precluding relief, the claim is procedurally defaulted.”) (citing Maupin, 785 F.2d at
138).
Second, “a petitioner may procedurally default a claim by failing to raise a claim in state
court, and pursue that claim through the state’s ‘ordinary appellate review procedures.’”
Williams, 460 F.3d at 806 (citing O'Sullivan v. Boerckel, 526 U.S. 838, 848 (1999)); see also
Boston v. Bagley, 282 F.Supp.2d 655, 661 (N.D.Ohio 2003) (“Issues not presented at each and
every level [of the state courts] cannot be considered in a federal habeas corpus petition.”); see
also State v. Moreland, 50 Ohio St.3d 58, 62 (1990)(failure to present a claim to a state court of
appeals constituted a waiver). “If, at the time of the federal habeas petition, state law no longer
allows the petitioner to raise the claim, the claim is procedurally defaulted.” Williams, 460 F.3d
at 806. While the exhaustion requirement is technically satisfied because there are no longer any

21

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 22 of 40. PagelD#:1723

state remedies available to the petitioner, see Coleman v. Thompson, 501 U.S. 722, 732 (1991),
the petitioner’s failure to have the federal claims considered in the state courts constitutes a
procedural default of those claims that bars federal court review. Williams, 460 F.3d at 806.
To overcome a procedural bar, a petitioner must show cause for the default and actual
prejudice that resulted from the alleged violation of federal law or that there will be a
fundamental miscarriage of justice if the claims are not considered. Coleman, 501 U.S. at 750.
“’[Cjause’ under the cause and prejudice test must be something external to the petitioner,
something that cannot be fairly attributed to him.” Id. at 753. “[T]he existence of cause for a
procedural default must ordinarily turn on whether the prisoner can show that some objective
factor external to the defense impeded counsel’s efforts to comply with the State’s procedural
rule.” Id. “A fundamental miscarriage of justice results from the conviction of one who is
‘actually innocent.’” Lundgren v. Mitchell, 440 F.3d 754, 764 (6th Cir. 2006) (citing Murray v.
Carrier, 477 U.S. 478, 496 (1986).
C. Jefferson’s grounds for relief
1.

Ground One should be DISMISSED

In Ground One, Jefferson asserts that his trial counsel was constitutionally ineffective,
arguing that his trial counsel: (1) was deficient in advising Jefferson to reject a plea deal and
proceed to trial; (2) did not follow procedures for renewing a Criminal Rule 29(c) motion; (3) did
not raise as an issue the fact that Jefferson told his trial counsel that he realized he knew one of
the jurors; (4) did not properly cross-examine the victim, Jeanette Ervin, and did not make sure
that Ms. Ervin was advised of her Fifth Amendment rights; and (5) overlooked relevant
evidentiary matters, including the need to obtain forensic testing, the need to subpoena an eye
witness and present testimony from certain other witnesses sent home from the trial, the need to

22

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 23 of 40. PagelD#:1724

introduce the DVD of Detective Wise’s interrogation, and the need to subpoena medical records.
Doc. 22, pp. 13-17.
Respondent contends that Ground One is subject to dismissal because Jefferson
procedurally defaulted the claims asserted therein and is unable to overcome that default. Doc.
28, pp. 25-27. For the reasons discussed below, the undersigned agrees.
In his direct appeal, Jefferson argued that the trial court erred in denying his Crim. R. 29
motion and that his conviction was against the manifest weight of the evidence. Doc. 28-1, pp.
26, 33-37, 38-39. Even though the alleged instances of ineffective assistance of trial counsel
could have been raised in Jefferson’s direct appeal, he failed to raise them. Jefferson raised
ineffective assistance of trial counsel in his first post-conviction petition. Doc. 28-1, p. 88.
However, the trial court denied his petition, finding that claims which had been or could have
been adjudicated by the appellate court were barred and that Jefferson provided nothing outside
the record to support his claims. Doc. 28-1, pp. 148-149. Furthermore, Jefferson’s post­
conviction petition did not include all of the alleged ineffective assistance of counsel claims that
he now seeks to be adjudicated in this federal habeas proceeding. And, Jefferson did not appeal
either of the trial court orders denying his post-conviction petitions.
Jefferson failed to raise the alleged ineffective assistance of trial counsel claims through
the state court’s ordinary appellate review procedures. See Williams, 460 F.3d at 806 (citing
O'Sullivan, 526 U.S. at 848). Further, to the extent that presenting his ineffective assistance of
trial counsel claims in a state post-conviction proceeding was the proper avenue for seeking
review of those claims, he failed to pursue an appeal of the state court’s denial of his requests for
post-conviction relief. Jefferson has not shown nor does he contend that he remains able to raise
his ineffective assistance of trial counsel claims in state court. See Wong v. Money, 142 F.3d 313,

23

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 24 of 40. PagelD#:1725

322 (6th Cir. 1998) (“Under Ohio law, the failure to raise on appeal a claim that appears on the
face of the record constitutes a procedural default under the State’s doctrine of res judicata.”);
State v. Perry, 10 Ohio St. 2d 175, 180 (Ohio 1967) (Ohio’s res judicata rule precludes a
defendant from raising for the first time in post-conviction proceedings a claim that was fully
litigated or could have been fully litigated at trial or on direct appeal). With no state-court
remedies still available to him, Jefferson has defaulted the claims. See Williams, 460 F.3d at 806
“If, at the time of the federal habeas petition, state law no longer allows the petitioner to raise the
claim, the claim is procedurally defaulted.”) (citing Engle, 456 U.S. at 125, n. 28); see also
Baston, 282 F.Supp.2d at 661 (“Issues not presented at each and every level [of the state courts]
cannot be considered in a federal habeas corpus petition.”); see also Moreland, 50 Ohio St.3d at
62 (failure to present a claim to a state court of appeals constituted a waiver).
To overcome the procedural fault, Jefferson must show cause for the default and actual
prejudice that resulted from the alleged violation of federal law or that there will be a
fundamental miscarriage of justice if the claims are not considered. Coleman, 501 U.S. at 750.
“’[C]ause’ under the cause and prejudice test must be something external to the petitioner,
something that cannot be fairly attributed to him.” Id. at 753. “[T]he existence of cause for a
procedural default must ordinarily turn on whether the prisoner can show that some objective
factor external to the defense impeded counsel’s efforts to comply with the State’s procedural
rule.” Id. “A fundamental miscarriage of justice results from the conviction of one who is
‘actually innocent.’” Lundgren, 440 F.3d at 764. A claim of actual innocence requires a
showing of “new reliable evidence” and requires a showing of factual innocence, not mere legal
insufficiency. See Schulp v. Delo, 513 U.S. 298, 324 (1995); Carter v. Mitchell, 443 F.3d 517,
538 (6th Cir. 2006) (quoting Bousley v. United States, 523 U.S. 614, 623 (1998) for the

24

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 25 of 40. PagelD#:1726

proposition that “actual innocence means factual innocence, not mere legal insufficiency”)
(internal quotations omitted).
To the extent that Jefferson argues that ineffective assistance of appellate counsel should
excuse his procedural default of Ground One, his claim fails. “Attorney error that constitutes
ineffective assistance of counsel is cause” to overcome procedural default. Coleman v.
Thompson, 501 U.S. 722, 754 (1991). However, claims of ineffective assistance of counsel
cannot provide cause for the procedural default of another claim if the ineffective assistance
claim itself is procedurally defaulted. Edwards v. Carpenter, 529 U.S. 446, 453 (2000).
Although, “that procedural default may [] itselfbe excused if the prisoner can satisfy the causeand-prejudice standard with respect to that claim.” Id. (emphasis original).
Jefferson argued in an application to reopen his appeal that his appellate counsel was
ineffective for failing to raise ineffective assistance of trial counsel in his direct appeal. Doc. 281, p. 118. However, he procedurally defaulted that claim because, as found by the state court of
appeals, Jefferson failed to timely file his application and he failed to demonstrate good cause for
the untimely filing. Doc. 28-1, p. 120. Moreover, Jefferson did not appeal the Sixth District
Court of Appeals’ denial of his application to reopen.8 Thus, in order for alleged ineffective
assistance of appellate counsel to serve as cause to excuse the procedural default, Jefferson must
demonstrate cause and prejudice to excuse the procedural default of his ineffective assistance of
appellate counsel claim.

8 Jefferson’s inclusion of a claim of ineffective assistance of appellate counsel in his discretionary appeal to the
Supreme Court of Ohio does not save his ineffective assistance of appellate counsel claims from procedural default.
See e.g., Ramirez v. Ross Correctional Inst., 2016 WL 5903231, ** 2-3 (N.D. Ohio Oct. 11, 2016) (finding that
petitioner’s discretionary appeal to the Supreme Court of Ohio did not preserve his ineffective assistance of appellate
counsel claims where the Supreme Court of Ohio declined jurisdiction and the petitioner failed to appeal from the
court of appeals’ denial of petitioner’s App. R. 26(B) application) (relying on Goldberg v. Maloney, 692 F.3d 534,
538 (6th Cir. 2012)).

25

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 26 of 40. PagelD#:1727

With respect to “cause,” Jefferson must demonstrate that an objective external factor
prevented his ability to comply with App. R. 26(B) filing requirement. He has not done so.
In his Petition and Traverse, Jefferson appears to seek to excuse errors he may have made
in pursuing the claims he now seeks to raise in this federal habeas proceeding due to lack of legal
training and mental and physical issues caused by epilepsy. Doc. 22, p. 26 (“If in fact errors
were made in any filing procedure with legal or law procedure Jefferson is a layman of the law
and he has a chronic medical condition called Epilepsy that may impair him at times mentally
and physically.”); Doc. 30-1, p. 1 (asserting “I lack any legal training and I am a layman of the
laws and legal procedures” and “my Epilepsy gave me some mental and physical set backs
meaning memory problems and ability to opperate [sic] close to normal.”). However, “a
petitioner’s lack of legal training, standing alone, is insufficient to establish cause.” Terry v.
Jackson, 2017 WL 5664915, * 2 (6th Cir. Jul 17, 2017) (unpublished) (citing Bonilla v. Hurley,
370 F.3d 494, 498 (6th Cir. 2004)). Moreover, the issue of whether a petitioner’s mental
limitations can serve as cause to excuse a procedural default has not been directly addressed by
the Sixth Circuit. Terry, 2017 WL 5664915, * 2 (citing Clark v. United States, 764 F.3d 653,
660 n. 3 (6th Cir. 2014)). But, even if mental limitations could serve as cause to excuse a
procedural default, Jefferson raises only a general claim that his medical condition may impair
him at times. Doc. 30-1, p. 1. He makes no specific showing as to how his mental “set backs”
prevented him from timely filing his application to reopen his appeal or his failure to file an
appeal from the state court of appeals’ denial of his application reopen. See e.g. Terry, 2017 WL
5664915, * 2 (finding petitioner was unable to excuse a procedural default where the petitioner
“did not indicate in any clear way ... how her mental illness prevented her from understanding
relevant legal deadlines and obligations”); see also Peterson v. Klee, 2015 WL 4389785, * 7-8

26

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 27 of 40. PagelD #: 1728

(E.D. Mich. July 15, 2015) (concluding that petitioner was unable to demonstrate that his
incompetence served as cause to excuse his procedural default); Kanios v. Baker, 961 F.2d 1577,
1 (6th Cir. 1992)(unpublished table decision) (rejecting petitioner’s claim that his procedural
default should be excused because he was on medication for depression following his
conviction). Furthermore, Jefferson has demonstrated an ability to comply with other filing
requirements and, notwithstanding his mental “set backs,” has filed a multitude of other motions
seeking relief in various courts. Thus, the undersigned is unable to conclude that his mental “set
backs” were an objective factor external to him that prevented him from complying with state
procedural rules for presenting his alleged ineffective assistance of counsel claims at every level
of the state court proceedings.
Although not clearly raised as a basis to excuse his procedural default of Ground One, to
the extent Jefferson claims that his failure to appeal the denial of his post-conviction petition
(that included claims of ineffective assistance of trial counsel (Doc. 28-1, p. 126)) should be
excused because his post-conviction counsel, who was appointed by the trial court, belatedly
notified him of the trial court’s denial of his post-conviction petition due to the trial court having
an incorrect office address for his post-conviction counsel (Doc. 28-1, pp. 156-158), his claim
should fail. The trial court’s December 20, 2017, order denying his petition for post-conviction
relief was sent by the trial court to Jefferson’s counsel and also to Jefferson. Doc. 28-1, pp. 150,
279. Also, on December 27, 2017, a copy of the docket was sent to Jefferson as requested. Doc.
28-1, p. 279. And, even if Jefferson did not learn of the denial of his post-conviction petition
until after the time for filing a notice of appeal had lapsed, Jefferson took no steps to seek leave
to file a delayed appeal. See App. R. 5.

27

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 28 of 40. PagelD#:1729

Considering the foregoing, the undersigned finds that Jefferson has failed to demonstrate
“cause” sufficient to overcome the procedural default of his ineffective assistance of trial counsel
claims in Ground One. Because Jefferson cannot establish “cause,” the undersigned need not
consider the “prejudice” prong of the procedural default analysis. See, e.g., Simpson v. Jones,
238 F.3d 399, 409 (6th Cir. 2000).
A procedural default may also be excused by demonstrating a claim of actual innocence.
A claim of actual innocence requires a showing of “new reliable evidence” and requires a
showing of factual innocence, not mere legal insufficiency. See Schulp v. Delo, 513 U.S. 298,
324 (1995); Carter v. Mitchell, 443 F.3d 517, 538 (6th Cir. 2006) (quoting Bousley v. United
States, 523 U.S. 614, 623 (1998) for the proposition that “actual innocence means factual
innocence, not mere legal insufficiency”) (internal quotations omitted). .
Jefferson asserts that he is actually innocent. Doc. 22, p. 29. However, he has not
presented evidence showing factual innocence. See e.g., Malcum v. Burt, 276 F.Supp.2d 664,
677 (E.D. Mich. 2003) (“[Ijmpeachment evidence is ... insufficient to justify invoking the
fundamental miscarriage of injustice exception to the procedural default rule.”); Plaza v.
Hudson, 2008 WL 5273899, * 10 (N.D. Ohio Dec. 17, 2008) (“[Ijmpeachment evidence of the
victim’s testimony ... is insufficient to establish a gateway claim of actual innocence.”).
For the foregoing reasons, the undersigned recommends that the Court DISMISS Ground
One as procedurally defaulted.
2.

Ground Two should be DISMISSED in part and DENIED in
part

In Ground Two, Jefferson contends that there was insufficient evidence to convict him of
felonious assault and having weapons while under disability. Doc. 22, pp. 17-18. He argues that
no actual victim was injured; there was no eye witness testimony to prove Jefferson actually shot
28

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 29 of 40. PagelD#:1730

a gun; there was no forensic testing to prove Jefferson shot a firearm; there was no evidence to
prove Jefferson was the owner or lease holder of the property at 2005 Elliott Ave. where the
firearms were located. Doc. 22, pp. 17-18.
Having weapons while under disability
Respondent argues that Jefferson’s claim that there was insufficient evidence to convict
him of having weapons while under disability should be dismissed because Jefferson
procedurally defaulted that claim. Doc. 28, pp. 27-29. For the reasons explained below, the
undersigned agrees.
In his direct appeal, Jefferson challenged only the sufficiency of the evidence as to his
conviction for felonious assault. Doc. 28-1, p. 33 (“Appellant argues that although the trial court
termed it a ‘close call’ in denying his Crim.R.29 motion on the Felonious Assault count,
insufficient evidence was introduced by the state on essential elements of this charged offense.”).
Since Jefferson failed to present his sufficiency of the evidence claim as to the having weapons
while under disability conviction in his direct appeal, he has procedurally defaulted that claim.
See Williams, 460 F.3d at 806 (citing O'Sullivan, 526 U.S. at 848); see also Boston, 282
F.Supp.2d at 661 (“Issues not presented at each and every level [of the state courts] cannot be
considered in a federal habeas corpus petition.”); see also State, 50 Ohio St.3d at 58 (failure to
present a claim to a state court of appeals constituted a waiver). With no state-court remedies still
available to him, Jefferson has defaulted the claim. Williams, 460 F.3d at 806.
As with Ground One, in order to overcome his procedural default, Jefferson must
demonstrate cause and prejudice or a fundamental miscarriage of justice if his sufficiency of the
evidence claim regarding his having weapons under disability claim is not heard.

Coleman, 501

U.S. at 750. Jefferson offers no grounds upon which the Court should find that the procedural

29

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 30 of 40. PagelD#:1731

default of his sufficiency of the evidence claim regarding having weapons while under disability
claim should be excused. To the extent that he contends that the default should be excused
because of ineffective assistance of appellate counsel and/or because of his mental or physical
conditions (Doc. 22, p. 18), for the reasons discussed above regarding Ground One, the
undersigned finds that Jefferson’s ineffective assistance of appellate counsel claims were also
procedurally defaulted and Jefferson cannot demonstrate cause to excuse said default. Also,
Jefferson has not established a claim of actual innocence as to his having weapons while under
disability such that not excusing his procedural default will result in a fundamental miscarriage of
justice. His arguments are premised on legal insufficiency, not factual innocence. For example,
he argues that there are no official records showing he owned or leased the property where he was
on the evening of the incident and where the guns were located. See e.g., Doc. 22, p. 17. Yet,
whether or not Jefferson owned or leased the real property does not demonstrate actual innocence
of the offense of having weapons while under disability. Moreover, as the state court of appeals
found when analyzing Jefferson’s sufficiency of the evidence claim regarding his felonious
assault conviction, Jefferson changed his story several times during Detective Wise’s
interrogation and admitted to shooting a possum earlier in the day in an attempt to explain the .25
caliber spent shell casing. Doc. 28-1, p. 74, 20. Thus, Jefferson’s claim that his sufficiency of
the evidence claim as to the having weapons while under disability conviction should be heard in
this federal habeas proceeding notwithstanding his procedural default of the claim because he is
actually innocent of the charge is unavailing.
For the foregoing reasons, the undersigned recommends that the Court DISMISS the
Ground Two sufficiency of the evidence claim regarding having weapons while under disability
as procedurally defaulted.

30

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 31 of 40. PagelD#:1732

Felonious assault
Respondent argues that Jefferson’s sufficiency of the evidence claim with respect to the
felonious assault conviction should be denied on the merits because the state court of appeals’
determination regarding said claim was not contrary to or an unreasonable application of clearly
established federal law. Doc. 28, pp. 27-37. For the reasons explained below, the undersigned
agrees.
In reviewing a claim that a petitioner’s conviction was not supported by sufficient
evidence, the relevant inquiry is “whether, after viewing the evidence in the light most favorable
to the prosecution, any rational trier of fact could have found the essential elements of the crime
beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S. 307, 319 (1979) (emphasis in
original). Under this standard, deference is due the jury’s determination. Brown v. Konteh, 567
F.3d 191, 205 (6th Cir. 2009). The standard is not whether the trier of fact made the correct guilt
or innocence determination but, rather, whether it made a rational decision to convict or acquit.
Herrera v. Collins, 506 U.S. 390, 402 (1993). Thus, in making a determination as to sufficiency
of the evidence, a court does “not reweigh the evidence, re-evaluate the credibility of witnesses,
or substitute [its] judgment for that of the jury.” Brown, 567 F.3d at 205; see also Matthews v.
Abramajtys, 319 F.3d 780, 788 (6th Cir. 2003). “Circumstantial evidence alone is sufficient to
support a conviction, and it is not necessary for the evidence to exclude every reasonable
hypothesis except that of guilt.” Johnson v. Coyle, 200 F.3d 987, 992 (6th Cir. 2000) (internal
quotations and citations omitted); see also Durr v. Mitchell, 487 F.3d 423, 449 (6th Cir. 2007)
(“circumstantial evidence is entitled to equal weight as direct evidence”).
On federal habeas review, an additional layer of deference applies. Coleman v. Johnson,
566 U.S. 650, 651, 132 S.Ct. 2060, 182 L.Ed.2d 978 (2012) (reaffirming that sufficiency of the

31

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 32 of 40. PagelD#:1733

evidence claims under Jackson “face a high bar in federal habeas proceedings because they are
subject to two layers of judicial deference”). Accordingly, even if this Court were to conclude
that a rational trier of fact could not have found petitioner guilty beyond a reasonable doubt, the
Court “must still defer to the state appellate court’s sufficiency determination as long as it is not
unreasonable.” Brown, 567 F.3d at 205 (citing 28 U.S.C. § 2254(d)(2)) (emphasis in original);
see also White v. Steele, 602 F.3d 707, 710 (6th Cir. 2009).
In rendering its decision affirming Jefferson’s conviction for felonious assault, the state
court of appeals addressed the sufficiency claim, stating:
(1114} In appellant’s first assignment of error, he argues that the trial court erred in
denying his Crim.R. 29 motion as to his conviction for felonious assault.
{f 15} A motion for acquittal under Crim.R. 29(A) is a challenge to the sufficiency
of the evidence. See State v. Brinkley, 105 Ohio St.3d 231, 2005-0hio-1507, 824
N.E.2d 959, f 39. The denial of a motion for acquittal under Crim.R. 29(A) “is
governed by the same standard as the one for determining whether a verdict is
supported by sufficient evidence.” State v. Tenace, 109 Ohio St.3d 255,2006-Ohio2417, 847 N.E.2d 386, | 37. In reviewing a challenge to the sufficiency of the
evidence, we view the evidence in a light most favorable to the prosecution and
determine whether “any rational trier of fact could have found the essential
elements of the crime proven beyond a reasonable doubt.” (Internal citations
omitted.) State v. Smith, 80 Ohio St.3d 89, 113, 684 N.E.2d 668 (1997). In making
that determination, the appellate court will not weigh the evidence or assess the
credibility of the witnesses. State v. Were, 118 Ohio St.3d 448, 2008-Ohio-2762,
890 N.E.2d 263, If 132. Whether there is sufficient evidence to support a conviction
is a question of law. State v. Thompkins, 78 Ohio St.3d 380, 386, 678 N.E.2d 541
(1997).
{^116} Initially, the state argues that appellant waived his right to challenge the trial
court’s denial of the Crim.R. 29 motion by failing to renew his motion at the close
of all of the evidence. In State v. Messer, 6th Dist. Lucas No. L-16-1109, 2017Ohio-1223, we held that “a criminal defendant does not waive the right to challenge
the sufficiency of the evidence or the denial of a Crim.R. 29(A) motion despite
failing to renew the motion following the close of all evidence.” Id. at 18. Thus,
we reject the state’s waiver argument.1 Next, we consider whether the evidence
presented by the state at trial was sufficient to support appellant’s conviction for
felonious assault.

32

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 33 of 40. PagelD#:1734

[FN 1] Additionally, we note that appellant did not present any
evidence of his own in this case. Consequently, renewing his
Crim.R. 29 motion would have been futile.
{^f 17} Under R.C. 2903.11(A)(2), a defendant may be convicted of felonious
assault for causing or attempting to cause physical harm to another by means of a
deadly weapon. “Firing a gun in a person’s direction is sufficient evidence of
felonious assault.” State v. Jordan, 8th Dist. Cuyahoga No. 73364, 1998 WL
827588, *12, 1998 Ohio App. LEXIS 5571, *31 (Nov. 25, 1998). According to
appellant, the state failed to introduce sufficient evidence to establish that he fired
a shot at Ervin as she was fleeing from the residence.
{| 18} In denying appellant’s Crim.R. 29 motion, the trial court characterized this
case as a “close call.” We agree. While the state did not introduce direct evidence
as to whether appellant pointed his firearm at Ervin and pulled the trigger, we find
that the circumstantial evidence was sufficient to establish that he did so.
{f 19} During her testimony at trial, Ervin testified that she clearly heard a gunshot
ring out from the area around the front porch as she was running out of the
residence. Prior to this point, appellant was enraged at the thought of Ervin
terminating the marriage, and had already violently reacted by biting Ervin and
attempting to prevent her from leaving the residence. During the incident, Ervin
observed a handgun sitting on a nearby table. After arriving at her vehicle following
the gunshot, she looked back and saw appellant reentering the residence from the
front porch.
(If 20} During the ensuing investigation, authorities recovered several firearms
inside the residence. One of these firearms contained ammunition that matched a
.25 caliber spent shell casing that was discovered lying on top of the grass next to
the front porch. Appellant attempted to explain the spent shell casing by admitting
to having shot at a possum earlier in the day. However, according to detective Wise,
appellant's story changed several times during the interrogation.
(T| 21} Construing the foregoing evidence in a light most favorable to the
prosecution, we find that a rational trier of fact could have found, beyond a
reasonable doubt, that appellant attempted to cause Ervin serious physical harm by
firing a shot in her direction as she attempted to escape the residence. Thus, the trial
court properly denied appellant's Crim.R. 29 motion, and appellant’s first
assignment of error is not well-taken.
Jefferson, 2017-Ohio-7272, ^ 14-21, 2017 WL 3575607, ** 3-4; see also Doc. 28-1, pp. 74-75
(alterations in original).

33

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 34 of 40. PagelD#:1735

The focus of Jefferson’s sufficiency argument is that there was no direct evidence that he
committed the offense of felonious assault as charged and that the victim’s testimony was not
credible. Doc. 22, pp. 17-18, Doc. 30, pp. 5-7. However, “[circumstantial evidence alone is
sufficient to support a conviction, and it is not necessary for the evidence to exclude every
reasonable hypothesis except that of guilt.” Johnson, 200 F.3d at 992; see also Durr, 487 F.3d at
449 (“circumstantial evidence is entitled to equal weight as direct evidence”). Additionally, as
discussed above, in making a determination as to sufficiency of the evidence, a court does “not
reweigh the evidence, re-evaluate the credibility of witnesses, or substitute [its] judgment for that
of the [trier of fact].” Brown, 567 F.3d at 205; see also Matthews v. Abramajtys, 319 F.3d 780,
788 (6th Cir. 2003). The jury heard the testimony of the witnesses and evaluated the credibility
of the witnesses’ testimony, including that of Ms. Ervin. Having done so, the jury reached a
guilty verdict.
Furthermore, as discussed above, on federal habeas review, two layers of deference
apply. Accordingly, even if this Court were to conclude that a rational trier of fact could not
have found petitioner guilty beyond a reasonable doubt, the Court “must still defer to the state
appellate court’s sufficiency determination as long as it is not unreasonable.” Brown, 567 F.3d
at 205 (citing 28 U.S.C. § 2254(d)(2)) (emphasis in original); see also White v. Steele, 602 F.3d
707, 710 (6th Cir. 2009). As found by the state court of appeals, the circumstantial evidence was
sufficient to establish that Jefferson committed the offense of felonious assault. Jefferson has not
shown that that the state court of appeals unreasonably concluded that there was sufficient
evidence to convict Jefferson of felonious assault. Nor has he shown that the state court of
appeals’ sufficiency determination was contrary to or an unreasonable application of clearly
established federal law, as required under AEDPA.

34

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 35 of 40. PagelD#:1736

Based on the foregoing, the undersigned concludes that federal habeas relief is not
warranted based on Jefferson’s sufficiency of the evidence claim and, therefore, recommends
that the Court DENY Jefferson’s sufficiency of the evidence claim in Ground Two regarding the
felonious assault conviction.
3.

Ground Three should be DISMISSED

In Ground Three, Jefferson argues that his due process rights were violated because the
prosecutor improperly introduced bad character evidence at trial by using Jefferson’s prior drug
conviction from 2007. Doc. 22, pp. 19-20. He asserts that the prosecutors violated his due
process rights and the prosecutors violated the Brady rule when they failed to introduce and
withheld from the jury the Detective Wise interrogation DVD from the night of February 3,
2016.9 Doc. 22, pp. 20-21. He also argues that the prosecutors violated his rights because they
did not introduce evidence sufficient to prove the elements of the offenses for which he was
charged. Doc. 22, pp. 21-26.
Respondent argues that Ground Three should be dismissed as not cognizable on federal
habeas review and/or due to procedural default. Doc. 28, pp. 16-18, 25-27. For the reasons
discussed below, the undersigned finds that Ground Three should be dismissed due to procedural
default.10
Although the alleged claims of prosecutorial misconduct would have been apparent from
the face of the record, Jefferson did not present a prosecutorial claim in his direct appeal. In his

9 Jefferson does not and cannot contend that prosecutors did not disclose the DVD to the defense prior to trial. As
reflected in the record, the DVD was disclosed and, in fact, at the joint request of the prosecution and defense, the
DVD was considered by the trial court in ruling on Jefferson’s motion to suppress. Doc. 28-1, pp. 16-17.
10 Respondent presents a thorough argument as to why the claim of prosecutorial misconduct premised on the
prosecutor’s reference to a 2007 drug conviction should be dismissed as not cognizable on federal habeas review.
Doc. 28, pp. 16-18. Since the entirety of Ground Three is subject to dismissal due to procedural default, the Court
need not separately address the alternative ground for dismissal.

35

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 36 of 40. PagelD#:1737

application to reopen his direct appeal, Jefferson made a brief mention in his second assignment
of error that the prosecutor mentioned a 2007 drug conviction. Doc. 28-1, p. 113. In his first
petition for post-conviction relief, Jefferson mentions prosecutorial misconduct but it is not clear
he in fact fairly presented a claim of prosecutorial misconduct. Doc. 28-1, p. 135 (State’s
opposition brief), Doc. 28-1, pp. 148-149 (trial court’s order denying post-conviction petition
finding that Jefferson raised a manifest weight of the evidence claim and ineffective assistance of
counsel claim). In his second petition for post-conviction relief, Jefferson raised a prosecutorial
misconduct claim, arguing misconduct because the prosecutors did not introduce all evidence,
including the interrogation DVD at trial. Doc. 28-1, pp. 160-161.
Since Jefferson did not raise his prosecutorial misconduct claims in his direct appeal, his
claims are procedurally defaulted. See Wong, 142 F.3d at 322 (“Under Ohio law, the failure to
raise on appeal a claim that appears on the face of the record constitutes a procedural default
under the State’s doctrine of res judicata.”). Assuming arguendo that Jefferson raised ineffective
assistance of appellate counsel based on a failure to raise prosecutorial misconduct in his direct
appeal in his App. R. 26(B) application, to the extent he seeks to rely on ineffective assistance of
appellate counsel as cause to excuse his procedural default of his Ground Three claims, his
attempt to do so is futile. As discussed above, Jefferson procedurally defaulted his ineffective
assistance of counsel claims by failing to timely file an App. R. 26(B) application and by failing
to file an appeal from the state court of appeals’ denial of his App. R. 26(B) application.
Moreover, he is unable to demonstrate cause to excuse the procedural default of those ineffective
assistance of counsel claims.
“The doctrine of exhaustion requires that a claim be presented to the state courts under
the same theory in which it is later presented in federal court.” Wong, 142 F.3d at 322. To the

36

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 37 of 40. PagelD#:1738

extent that Jefferson raised prosecutorial misconduct in his post-conviction petitions in the same
manner he raises it in this federal habeas proceeding, since those claims would have been
apparent from the face of the record, he was precluded by res judicata from raising such claims
in post-conviction proceedings. Perry, 10 Ohio St. 2d at 180 (Ohio’s res judicata rule precludes
a defendant from raising for the first time in post-conviction proceedings a claim that was fully
litigated or could have been fully litigated at trial or on direct appeal). The trial court denied
Jefferson’s first petition for post-conviction relief, indicating that “claims which have been or
could have been adjudicated by the appellate court are barred” and finding that Jefferson
provided nothing outside the record to support his arguments. Doc. 28-1, pp. 147-148. The trial
court denied Jefferson’s second petition for post-conviction relief as untimely. Doc. 28-1, p.
178. Jefferson failed to appeal the trial court’s denial of his post-conviction petitions and, as
discussed above, he has not demonstrated cause to excuse the procedural default. Also, Jefferson
has not demonstrated that his procedural default should be excused based on a claim of actual
innocence.
Based on the foregoing, the undersigned recommends that the Court DISMISS Ground
Three as procedurally defaulted.
4.

Ground Four should be DISMISSED

In Ground Four, Jefferson argues that the Toledo police unlawfully seized him and
unlawfully searched the property at 2055 Elliott Ave. Doc. 22, pp. 27-28.
The Supreme Court has held, “that where the State has provided an opportunity for full
and fair litigation of a Fourth Amendment claim, a state prisoner may not be granted federal
habeas corpus relief on the ground that evidence obtained in an unconstitutional search or seizure
was introduced at his trial.” Stone v. Powell, 428 U.S. 465, 494 (1976). In Riley v. Gray, 674

37

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 38 of 40. PagelD#:1739

F.2d 522, 526 (6th Cir. 1982), the Sixth Circuit “developed a two-step inquiry in assessing
whether Stone applies to preclude federal habeas review of Fourth Amendment claims.”
Shepherd v. Warden, Pickaway Correctional Inst., 2011 WL 3664442, * 6 (S.D. Ohio May 31,
2011), report and recommendation adopted, 2011 WL 3652615 (S.D. Ohio Aug. 18, 2011).
First, “the district court must determine whether the state procedural mechanism in the abstract,
presents the opportunity to raise a fourth amendment claim.” Riley, 674 F.2d at 526. “Second,
the court must determine whether presentation of the claim was in fact frustrated because of a
failure of that mechanism.” Id. The Sixth Circuit more recently clarified that “the Powell
‘opportunity for full and fair consideration’ means an available avenue for the prisoner to present
his claim to the state courts, not an inquiry into the adequacy of the procedure actually used to
resolve that particular claim.” Enyart v. Coleman, 29 F.Supp.3d 1059, 1087 (N.D. Ohio Jul. 11,
2014) (discussing and quoting Good v. Berghuis, 729 F.3d 636, 639 (6th Cir. 2013)). Thus,
when considering whether a petitioner has had a full and fair opportunity to litigate his Fourth
Amendment claim, the Sixth Circuit directs that a court ask: “Did the state courts permit the
defendant to raise the claim or not?” Id. (quoting Good, 729 F.3d at 640).
With respect to the first inquiry under Riley, Ohio has a mechanism in place for resolving
Fourth Amendment claims. It provides a defendant, such as Jefferson, the opportunity to file a
pretrial motion to suppress and the opportunity to take a direct appeal from the denial of the
motion to suppress. See Riley, 674 F.2d at 526 (finding that Ohio criminal and appellate rules
provide adequate procedural mechanisms for litigation of fourth amendment claims). With
respect to the second inquiry under Riley, there is no indication that Jefferson’s presentation of
his Fourth Amendment claim was frustrated by a failure of Ohio’s procedural mechanism. He
was represented by counsel. He had an opportunity to file pre-trial motions and did in fact file a

38

Case: 3:18-cv-00779-PAB Doc#: 34 Filed: 05/15/19 39 of 40. PagelD#:1740

pretrial motion to suppress statements he made, which was decided by the trial court following a
hearing. Doc. 28-1, pp. 8-18. Jefferson did not present his Fourth Amendment claims in the trial
court. Nor did not he present them in his direct appeal. It was not until he filed an untimely
second petition for post-conviction relief on April 13, 2018, that he sought to raise his Fourth
Amendment claims. Doc. 28-1, pp. 161-162.
Jefferson had the ability to litigate his search and seizure claim at the trial court and in his
appeal. However, he did not. Jefferson fails to identify anything in the state court record to
suggest that his ability to present his Fourth Amendment claims was frustrated as a result of the
state court’s process for presentation of such claims. Thus, the undersigned recommends that the
Court DISMISS Ground Four as barred by Stone v. Powell. Alternatively, even if not barred by
Stone v. Powell, the Court should DISMISS Ground Four as procedurally defaulted because,
when Jefferson ultimately raised his search and seizure claim in his second post-conviction
petition, the trial court denied his petition as untimely and Jefferson did not file an appeal from
the trial court’s denial. As discussed above, Jefferson is unable to demonstrate cause to excuse
the procedural default or a claim of actual innocence.

39

Case: 3:18-cv-00779-PAB Doc #: 34 Filed: 05/15/19 40 of 40. PagelD#:1741

IV.

Recommendation

For the reasons stated herein, the undersigned recommends that the Court DISMISS
and/or DENY Jefferson’s Petition (Doc. 1/Doc. 22). Grounds One, Three and Four should be
dismissed. Ground Two should be dismissed and/or denied.

/s/Kathleen B. Burke
Dated: May 15, 2019

Kathleen B. Burke
United States Magistrate Judge

OBJECTIONS
Any objections to this Report and Recommendation must be filed with the Clerk of
Courts within fourteen (14) days after the party objecting has been served with a copy of this
Report and Recommendation. Failure to file objections within the specified time may waive the
right to appeal the District Court's order. See United States v. Walters, 638 F.2d 947 (6th Cir.
1981). See also Thomas v. Arn,AlA\5.S. 140 (1985), reh'g denied, 474 U.S. 1111 (1986).

40

Additional material
from this filing is
available in the
Clerk's Office.

